Quarterly Progress and
Oversight Report on the Civilian
Assistance Program in Pakistan
As of March 31, 2013
Foreword
This is the thirteenth quarterly progress and oversight report on the U.S. Government’s civilian
assistance program in Pakistan. The U.S. Embassy in Pakistan requested quarterly reporting to inform
stakeholders about progress achieved to date, problems encountered during program implementation,
and actions taken to address them.

This report covers the period January 1 to March 31, 2013. The U.S. Embassy reported that, as of
March 31, 2013, $3.984 billion in civilian assistance funds for fiscal years 2010–2013 had been obligated
and that $3.571 billion had been spent since fiscal year 2010.

Program status information in this report is based on information provided by the departments and
agencies working in Pakistan—the Departments of Agriculture, Commerce, Defense, and State and the
U.S. Agency for International Development, U.S. Institute of Peace, and U.S. Trade and Development
Agency. In most instances, this information has not been independently verified or audited. The
information on program oversight comes from audits, reviews, and investigations performed by the
Offices of Inspector General of the U.S. Agency for International Development and the Departments of
Agriculture, Commerce, Defense, Homeland Security, Justice, and State, as well as by the Government
Accountability Office.



                  /s/                   .
Michael G. Carroll
Deputy Inspector General
U.S. Agency for International Development



                /s/                       .
The Honorable Harold W. Geisel
Deputy Inspector General
Department of State



                  /s/                     .
Lynne M. Halbrooks
Principal Deputy Inspector General
Department of Defense
Contents
Executive Summary ........................................................................................................................................................... 1
Background.......................................................................................................................................................................... 3
Program Status ................................................................................................................................................................... 7
    Energy .............................................................................................................................................................................. 9
    Economic Growth ....................................................................................................................................................... 12
    Stabilization ................................................................................................................................................................... 20
    Education ....................................................................................................................................................................... 31
    Health ............................................................................................................................................................................. 35
    Crosscutting Priorities: Good Governance, Gender Equity, and Greater Transparency ......................... 38
    Humanitarian Assistance ........................................................................................................................................... 46
    Assistance to Pakistani Institutions ......................................................................................................................... 54
Staffing ................................................................................................................................................................................ 57
Risks and Mitigation Strategies ..................................................................................................................................... 59
Oversight Status ............................................................................................................................................................... 64
    Department of State Office of Inspector General .............................................................................................. 64
    USAID Office of Inspector General........................................................................................................................ 65
    Government Accountability Office ......................................................................................................................... 71
Appendix I—Distribution of U.S. Assistance by Agency ........................................................................................ 73
Appendix II—Completed Oversight Reports ........................................................................................................... 76
Appendix III—Abbreviations ......................................................................................................................................... 86
Executive Summary
The Enhanced Partnership with Pakistan Act of 2009, Public Law 111-73 (October 15, 2009), authorizes
democratic, economic, and development assistance to Pakistan of up to $1.5 billion per year from fiscal
year (FY) 2010 through FY 2014, for a total of $7.5 billion. The Pakistan Assistance Strategy Report, issued
by the U.S. Department of State (DOS) in December 2009, guides the U.S. Government’s civilian
assistance program in Pakistan, which is designed to build trust and a long-term partnership between the
two countries by strengthening mutual security, stability, and prosperity.

The U.S. Embassy reported that, as of March 31, 2013, $3.984 billion in civilian assistance funds for
FYs 2010–2013 had been obligated and that $3.571 billion had been spent since FY 2010. These funds
are intended to address the country’s most critical infrastructure needs, help the Pakistani Government
meet its citizens’ basic needs and provide improved economic opportunities, and strengthen Pakistan’s
capacity to pursue economic and political reforms that reinforce stability.

Challenges to implementation of the civilian assistance program in Pakistan remain in every sector.
Limited local technical capacity has affected the implementation of many assistance efforts. Many
programs operate under difficult security conditions, and implementing partners and program
participants have been subject to criticism and harassment for their association with U.S. Government
efforts. Program staffing and events have been hampered by the denial of visas and visa extensions to
U.S. Government employees and implementing partners, and project personnel have been kidnapped
and killed in areas where security is lacking. Despite these challenges, implementation of assistance
programs continued. May 2013 parliamentary elections held the promise of a historic, peaceful transfer
of civilian power in Pakistan that, in turn, had the potential to produce changes in government priorities
and the direction of assistance programs.

The U.S. Agency for International Development (USAID) continued to implement programs through
Pakistani institutions, including national and provincial governments and nongovernmental organizations
(NGOs). During FYs 2010, 2011, and 2012, USAID awarded $2.211 billion to governmental and
nongovernmental Pakistani institutions. From December 15, 2012, through March 31, 2013, USAID
made awards to these groups totaling $45.6 million. To overcome risks to its programs and improve
monitoring and oversight of them, USAID continued to conduct preaward assessments of local
implementing partners and hired independent monitors to report on project developments.

To protect USAID funds against waste and theft, USAID’s Office of Inspector General (OIG) pursued
hotline complaints and conducted investigations and audits. OIG investigative and audit findings
regarding the recently concluded Pakistan Children’s Television Project prompted USAID to issue a bill
of collection to the former implementer of the program for more than $1.5 million. OIG performance
audits issued during the reporting period addressed the sustainability of assistance to the Jamshoro
Thermal Power Plant and performance of the Gender Equity Program. OIG’s audit of USAID’s
Jamshoro Thermal Power Plant Repair and Rehabilitation Project concluded that the benefits of U.S.
                                                                                                          1
Government investments in the plant could not be sustained without policy reforms on the part of the
Pakistani Government. Meanwhile, OIG found that USAID’s Gender Equity Program had made progress
in expanding women’s access to justice, combating gender-based violence, and strengthening
organizations that advocate women’s rights, but noted that program grants designed to combat gender-
based violence were too short to have a lasting effect on intended beneficiaries and that mission site
visits were insufficient to verify reported results.




                                                                                                    2
Background
The United States is Pakistan’s largest reported source of bilateral development assistance and the
largest contributor to Pakistan’s leading providers of multilateral development assistance. U.S. civilian
assistance to Pakistan is important to maintaining the long-term strategic partnership that the U.S.
Government sought to forge with the Government of Pakistan and its citizens through the Enhanced
Partnership with Pakistan Act of 2009, Public Law 111-73 (October 15, 2009). The act authorized
$1.5 billion per year for FYs 2010–2014, for a total of $7.5 billion, in democratic, economic, and
development assistance.

In 2009, DOS developed a strategy for providing civilian assistance to Pakistan.1 The strategy’s
objectives include addressing the country’s most critical infrastructure needs; helping the Pakistani
Government meet basic needs and provide improved economic opportunities, especially in areas most
vulnerable to extremism; and strengthening Pakistan’s capacity to pursue economic and political reforms
that reinforce stability. The strategy initially focused on high-impact, high-visibility infrastructure
programs, the provision of humanitarian and social services, and improved governance and security. In
2011, USAID and DOS refined the strategy to focus assistance on energy, economic growth,
stabilization, education, and health. Programs in these sectors incorporate crosscutting themes of good
governance, gender equity, and greater transparency.2 In addition to delivering civilian assistance in
these sectors, the U.S. Government seeks to provide fast, effective humanitarian relief when called on
for assistance.

Political and security conditions in Pakistan continued to complicate project design, implementation, and
monitoring. U.S. Government personnel and implementing partners reported that delays in visa
approvals and harassment by Pakistani officials hindered the progress of assistance programs. U.S.
Government personnel are subject to security-related travel restrictions, and project activities are often
delayed or cancelled because of security concerns. According to a database of incidents of violence
against aid workers, 44 aid workers were killed in Pakistan, 21 wounded, and 35 abducted from
October 2009 to December 2012.3

Since the ratification of the Enhanced Partnership with Pakistan Act, the U.S. Congress has appropriated
$3.531 billion in civilian assistance funding for Pakistan through four foreign operations accounts. As of
March 31, 2013, the U.S. Embassy in Islamabad reported that U.S. Government agencies had obligated
$2.906 billion of this total (Table 1). Other assistance funds for Pakistan, such as International Disaster

1
    Pakistan Assistance Strategy Report, December 14, 2009.
2
  Office of the Special Representative for Afghanistan and Pakistan, Status Report: Afghanistan and Pakistan Civilian
Engagement, November 2011.
3
  Humanitarian Outcomes, Aid Worker Security Database, 2009–12, https://aidworkersecurity.org/, retrieved May 7,
2013.


                                                                                                                   3
Assistance, Food for Peace, Migration and Refugee Assistance (MRA), and Emergency Refugee and
Migration Assistance (ERMA), are not designated for use in specific countries during the appropriations
process. These other funds are not shown in Table 1.

               Table 1. Civilian Assistance to Pakistan by Fund and Agency for
                    Select Foreign Assistance Funds as of March 31, 2013
                                    ($ Million; Unaudited)

                                         Appropriated*                                      Obligated
          Fund                                                             Agency
                            FY 2010    FY 2011    FY 2012     Total                        FYs 2010–2013

 Economic Support                                                      Department of
 Fund (ESF)                  1,247.0      891.0      864.7   3,002.7   Commerce                     1.0
                                                                       (DOC)
                                                                       Department of
                                                                                                  10.0
                                                                       Defense (DOD)
                                                                       DOS                        74.7
                                                                       Department of
                                                                       the Treasury                 0.1
                                                                       (DOT)
                                                                       USAID                    2,395.5
                                                                       Department of
                                                                       Agriculture                30.2
                                                                       (USDA)
                                                                       U.S. Institute of
                                                                                                    3.0
                                                                       Peace (USIP)
                                                                       U.S. Trade and
                                                                       Development
                                                                                                    2.3
                                                                       Agency
                                                                       (USTDA)
                                                                           Subtotal            2,516.8
 Global Health and
                                29.7       28.4          –      58.1   USAID                      54.7
 Child Survival (GHCS)
 International Narcotics
 and Law Enforcement           170.0      114.3      116.0     400.3   DOS                       285.9
 (INCLE)
 Nonproliferation,
 Anti-terrorism,
 Demining, and                23.9         24.8       20.8      69.5   DOS                        49.0
 Related Programs
 (NADR)

 Total                     1,470.6     1,058.5    1,001.5    3,530.6                           2,906.4



                                                                                                          4
Source: DOS Office of Foreign Assistance Resources and U.S. Embassy Islamabad.
* Reported amounts are limited to funds that were designated for use in Pakistan during the appropriations
  process. Foreign operations appropriations for FY 2010 were provided in the Consolidated Appropriations
  Act, 2011, Public Law 111-117 (December 16, 2009), and the Supplemental Appropriations Act, 2010. Public
  Law 111-212 (July 29, 2010). Foreign operations appropriations for FY 2011 were provided in the Department
  of Defense and Full-Year Continuing Appropriations Act, 2011, Public Law 112-10 (April 15, 2011), and foreign
  operations appropriations for FY 2012 were provided in the Consolidated Appropriations Act, 2012, Public
  Law 112-74 (December 23, 2011). The latter act also provided the basis for rescissions that were applied to
  appropriations for Pakistan. These rescissions have been applied to the amounts reported in the table.


GHCS, INCLE, and NADR funds are each obligated for assistance activities in a single sector. GHCS
funds support health sector activities, while INCLE and NADR funds support stabilization efforts. By
contrast, ESF money is used in all components of the U.S. Government’s civilian assistance program in
Pakistan. All energy, economic growth, and education activities are funded through ESF, and ESF
provides most of the funding for stabilization and health programs and those that support good
governance, gender equity, and greater transparency. ESF also accounts for more than a quarter of U.S.
humanitarian assistance obligations.

On March 26, 2013, the U.S. Congress passed an appropriation to continue to fund U.S. Government
operations for FY 2013.4 The measure provides funding for civilian assistance programs but does not
provide specific funding levels for civilian assistance to Pakistan.




4
 Department of Defense, Military Construction and Veterans Affairs, and Full-Year Continuing Appropriations
Act, 2013, Public Law 113-6 (March 26, 2013).


                                                                                                              5
                                             Map of Pakistan




Source: USAID Office of Transition Initiatives, Geographic Information Unit.




                                                                               6
Program Status
The U.S. departments and agencies delivering development assistance in Pakistan are implementing
programs in energy, economic growth, stabilization, education, and health; the crosscutting areas of
governance, gender equity, and greater transparency; and humanitarian assistance. Table 2 and the
sections that follow it provide information on the status of the programs in these areas.

The U.S. Embassy reported that, as of March 31, 2013, $3.984 billion in civilian assistance funds from
FYs 2010–2013 had been obligated and that $3.571 billion in funding had been spent to support the
civilian assistance strategy since FY 2010 (Table 2).

      Table 2. Civilian Assistance to Pakistan by Sector and Fund as of March 31, 2013
                                    ($ Million; Unaudited)

                                                                                                       †
                                                          Obligated*                          Disbursed
                                                                                             FYs 2010–2012
    Sector             Fund

                                    FY 2010    FY 2011    FY 2012      FY 2013    Total

Energy               ESF                98.3      237.5          –           –       335.8          225.3
                    Subtotal           98.3      237.5           –           –       335.8          225.3

Economic             ESF                97.7      177.5        64.4          –       339.5          170.7
       ‡
Growth              Subtotal           97.7      177.5        64.4           –       339.5          170.7

Stabilization
                ‡    ESF               258.7      152.6       241.7          –       653.0          504.7
                     INCLE             166.0      114.4         4.0         1.5      285.9          151.6
                     NADR               29.8       18.5         0.8          –        49.0           25.7
                     Pakistan
                     Counter-
                     insurgency          –         70.0          –           –        70.0             –
                                §
                     Fund (PCF)

                    Subtotal          454.5      355.5       246.5          1.5    1,057.9          682.0

Education            ESF               226.0      101.8        20.2          –       348.0          305.1
                    Subtotal          226.0      101.8        20.2           –       348.0          305.1

Health               ESF               196.9       57.5          –           –      254.4
                                                                                                    236.4
                     GHCS               27.5       27.2          –           –       54.7
                    Subtotal          224.3       84.7           –           –       309.1          236.4


                                                                                                        7
                                                                                                                   †
                                                                Obligated*                                Disbursed
                                                                                                         FYs 2010–2012
       Sector             Fund

                                       FY 2010      FY 2011     FY 2012      FY 2013       Total

Crosscutting        Consular and
Priorities**        Diplomatic                7.0         9.5        25.6            1.5       43.5              22.1
                    Programs
                    ESF                    105.6       127.6         10.3             –       243.5             142.3
                    Human Rights
                    & Democracy               2.1          –          0.2             –            2.3            2.2
                    Fund
                    Subtotal              114.7        137.1        36.1             1.5      289.4             166.6

Humanitarian        DOD Overseas
                    Humanitarian,
Assistance                                     –           –           –              –             –            97.0
                    Disaster, &
                    Civic Aid
                    ERMA                    33.0           –           –              –        33.0              33.0
                    ESF                    334.7           –          8.0             –       342.7             684.9
                    Food for Peace          96.9       115.1         68.1        60.1         340.1             340.1
                    INCLE                      –           –           –              –             –             3.9
                    International
                    Disaster               258.4       164.1         54.3            3.0      479.8             517.8
                    Assistance
                    MRA                     57.0         33.5        14.9            3.0      108.4             107.8
                    Subtotal              780.0        312.7       145.3        66.1        1,304.0           1,784.6

    Total                               1,995.4      1,406.7       512.5        69.1        3,983.6           3,570.7

Source: U.S. Embassy Islamabad.

Note: Numbers do not always sum to subtotals and totals because of rounding. A dash indicates a value of zero.

*    Obligations are reported by the fiscal year in which funds were appropriated.

†    Disbursement figures refer to funds disbursed in FYs 2010–2013 regardless of when the funds were
     appropriated or obligated. Some disbursements during this period were of funds appropriated before FY 2010.
     As a result, these figures cannot be used to determine how much of the obligated funding reported in this table
     remains unexpended.
‡    The U.S. Embassy modified its approach for reporting on sector obligations and disbursements. As a result,
     obligations and disbursements that were reported under Economic Growth in past quarters are now reported
     under Stabilization.
§    DOD transferred PCF funds to USAID to support reconstruction work on the road between Peshawar and
     Torkham.


                                                                                                                    8
** In addition to funds from Consular and Diplomatic Programs, ESF, and the Human Rights and Democracy Fund,
   U.S. Government assistance to Pakistan for crosscutting priorities has been supported by less than $100,000 in
   Development Assistance funding.


U.S. civilian assistance funds are not distributed evenly across sectors. As shown in Figure 1, the U.S.
Government has concentrated the largest share of its obligations since FY 2010 on humanitarian
assistance.

    Figure 1. Distribution of Civilian Assistance Obligations by Sector as of
                                 March 31, 2013



                                             8%
                                                                           Energy
                                                     8%
                          33%                                              Economic Growth
                                                                           Stabilization
                                                                           Education

                                                          27%              Health
                                                                           Crosscutting Priorities
                            7%
                                                                           Humanitarian Assistance
                                   8%
                                           9%



 Source: U.S. Embassy Islamabad.


Eight federal agencies have provided civilian assistance to Pakistan. Of these, USAID and DOS are the
source of most related spending, accounting for 84 and 12 percent, respectively. Detailed information
on the distribution of U.S. assistance funds by federal agency and office appears in Appendix 1.


Energy
Pakistan’s energy sector challenges are widely regarded as a major impediment to national development
and have been the focus of significant public and political attention and debate in recent years.

Pakistan’s per capita electricity consumption is among the lowest in Asia and is only about two-thirds of
that of India. More than a third of Pakistanis do not have access to electricity. Problems with the
quality of electrical service and difficulties obtaining a connection have suppressed consumption and
access. The World Bank rates the time, cost, and procedural requirements for a business to obtain an
electrical connection in Pakistan to be among the 15 worst in the world.

                                                                                                               9
Pakistan’s relatively low level of electricity demand frequently outstrips its supply. Electricity rationing
commonly results in blackouts. These blackouts are a routine feature of daily life and sometimes extend
for as long as 20 hours in rural areas. Frequent shortages of oil and gas for electricity generation and
heating contribute to and compound the electricity shortfall.

The growth of domestic manufacturing has slowed because of energy shortages and the high costs of
electricity and gas. According to Asian Development Bank estimates, Pakistan’s unpredictable, severe
power outages reduce economic growth by at least 2 percent a year.

The U.S. Government and other donors provide technical assistance to help the Pakistani Government
develop appropriate energy pricing, regulatory, and privatization policies and assist in implementing
Pakistan’s energy reform plan. In addition, the United States aims to increase electricity generation,
decrease transmission losses, and increase cost recovery by investing in selected energy infrastructure
and capacity-building activities.

USAID. USAID had eight energy programs under way during the reporting period (Table 3). USAID’s
programs seek to help the Pakistani Government supply hydropower by completing and rehabilitating
dams and thermal power stations.

             Table 3. USAID Energy Programs as of March 31, 2013 (Unaudited)

                                                   Start      End         Implementing           Funding
      Name                   Description
                                                   Date       Date          Partner                ($)

                       Provides technical and
                       engineering support to                          Advanced
Energy Policy          USAID-funded                                    Engineering
                                                   2/12       10/15                               33,336,559
Project                infrastructure projects                         Associates
                       implemented by the                              International
                       Government of Pakistan

                       Increases hydropower                            Water and Power
Gomal Zam Dam
                       capacity and builds         1/11       9/13     Development                40,000,000
Project
                       transmission lines                              Authority (WAPDA)

                                                                       Central Power
                       Repairs and maintains a
Guddu Project                                      5/10       12/13    Generation                 18,068,000
                       thermal power station
                                                                       Company Limited

                       Rehabilitates a thermal                         Jamshoro Power
Jamshoro Project                                   5/10       3/14                                18,360,000
                       power station                                   Company Limited

                                                                       Northern Power
Muzaffargarh           Rehabilitates a thermal
                                                   5/10       12/13    Generation                 15,193,000
Project                power station
                                                                       Company Limited


                                                                                                         10
                                                     Start   End       Implementing          Funding
      Name                      Description
                                                     Date    Date        Partner               ($)

                          Improves the
                          management capacity,
Power
                          financial systems, and                     International
Distribution                                         9/10    10/15                           124,000,000
                          billing and collection                     Resources Group
Project
                          systems of power
                          distribution companies

Satpara Dam               Increases hydropower
                                                     1/11    4/13    WAPDA                    26,000,000
Project                   capacity by 17 megawatts

Tarbela Dam               Rehabilitates a
                                                     4/10    12/13   WAPDA                    16,500,000
Project                   hydropower station

Source: USAID/Pakistan.

As of March 31, 2013, USAID reported that it had added a total of 965 megawatts of capacity to
Pakistan’s electrical grid through generation or savings. USAID’s goal was to add or save 900 megawatts
by the end of December 2013, and it has already surpassed this goal. Additional megawatt capacity will
be added by the end of the current fiscal year.

USAID also reported the following accomplishments in its portfolio of energy programs:

    Progress continued on six energy projects involving rehabilitation and construction of hydroelectric
    and thermal power plants that Secretary Clinton announced in October 2009 and July 2010. During
    the reporting period, cash reimbursements to the Government of Pakistan to support these
    activities continued. U.S. Government reimbursements for these projects total more than
    $117 million.

    The Gomal Zam Dam Project will provide Pakistan with 17.4 megawatts of additional generation
    capacity. Project work on the main dam, powerhouse, and transmission line is complete. Work on
    a transmission line connection to the switchyard is under way. Once completed, this connection
    will enable the power plant to transmit electricity to South Waziristan.

    The Jamshoro Thermal Power Plant has increased its power generation capacity to 235 megawatts,
    exceeding the target of 150 megawatts.

    No additional power generation capacity was added to the Muzaffargarh plant since the previous
    quarter. However, this plant already exceeded its target for power-generating capacity by
    5 megawatts and is expected to produce additional gains in the future.




                                                                                                     11
    The Satpara Dam will add about 17.6 megawatts to Pakistan’s electrical supply. Construction of the
    dam is complete. At the end of the reporting period, work on two of four remaining powerhouses
    was 90 percent complete, and the dam was generating 13.8 megawatts. Project work was expected
    to end by May 2013.

    The Power Distribution Project has saved 83.45 megawatts of energy flow in Pakistan’s grid by
    introducing new technology and improving work practices in all nine government-owned
    distribution companies. Project work is expected to increase company revenues by $33.7 million a
    year. During the quarter, a group of women from utility companies traveled to the United Arab
    Emirates to participate in a customer service and women-in-energy exchange program. This
    initiative is the first of its kind in which women employees, who make up less than 1 percent of the
    utility company workforce, were able to participate in an international exchange program.

USAID reported that, in the past few months, the generation companies at Guddu, Jamshoro, and
Muzaffargarh faced challenges because of procurement problems. In response, USAID increased
capacity building for thermal plant personnel in procurement, financial and human resources, and
administrative management. USAID reported that its interventions have led to positive results,
particularly for the Jamshoro and Muzaffargarh thermal power plants where USAID exceeded generating
capacity targets. According to the Agency, however, the Guddu thermal power plant remains a
challenge, and USAID continues to work with the plant’s management to accelerate procurements.
During the reporting period, a total of $40.2 million was disbursed to the Government of Pakistan under
these projects.

USAID also noted that work on Gomal Zam Dam slowed because of security conditions and delays in
Pakistani Government payments to contractors. At the request of the Pakistani Government, USAID
increased financing by $5 million to expedite completion of the project.


Economic Growth

Over the past 3 years, Pakistan has experienced high inflation and relatively low or stagnant economic
growth—stagflation. The combination of stagflation, falling exports, and multibillion-dollar repayments
to the International Monetary Fund has reduced the value of the rupee, and these factors could
contribute to balance-of-payments problems for Pakistan.

Sixty percent of Pakistanis live on $2 or less a day, and more than one in five live on less than $1.25 a
day. Only half of Pakistanis over the age of 15 are employed, and the small businesses that provide the
majority of new employment lack access to finance. Similarly, the agriculture sector, which accounts for
21 percent of Pakistan’s gross domestic product and employs 44 percent of the labor force, is
constrained by insufficient investment and policy limitations.

The U.S. Government’s assistance program for Pakistan is designed to stimulate broad-based, inclusive
economic growth, particularly in agriculture, trade, and entrepreneurship, through projects that support

                                                                                                      12
policy reform, improve access to finance, improve trade conditions, assist in workforce development,
increase agricultural productivity, and improve water management. DOC, USAID, USDA, and USTDA
support programs under this category of assistance.

DOC. DOC has six programs and activities that support the Embassy’s economic growth initiative.

   The Market Research Program aims to provide interested investors with information about
   promising sectors of Pakistan’s economy.

   DOC prepares preliminary information memorandums to highlight projects with high potential for
   financial return.

   DOC sponsors investment promotion events and business exchanges between Pakistan and the
   United States under its Event Management Program. These exchanges include DOC-led Pakistani
   delegations to trade shows and industry conferences in the United States and to regional trade
   shows with many U.S. exhibitors.

   The Commercial Law Development Program provides technical assistance in commercial law to
   foreign governments and private sector representatives to support their economic development
   goals.

   The Business Training for Export Diversification Program promotes the expansion and
   diversification of Pakistani exports to the United States through training events and exchanges.

   DOC’s Pakistan Special American Business Internship Training is designed to accelerate Pakistani
   export diversification and to connect Pakistani entrepreneurs with the business partners and
   suppliers they will need to help sustain Pakistan’s economic growth.

USAID. USAID currently has ten programs and three transfers of funds to other agencies (Table 4)
that contribute to agricultural and economic growth objectives. These programs support trade,
development of provincial irrigation systems, and the production and sale of agricultural commodities,
among other activities.




                                                                                                   13
      Table 4. USAID Programs to Promote Economic Growth as of March 31, 2013
                                    (Unaudited)

                                                  Start   End       Implementing       Funding
      Name                 Description
                                                  Date    Date        Partner            ($)


                     Increases productivity,
Agribusiness         product quality, and                         Agribusiness
                                                  11/11   11/16                        27,300,000
Project              competitiveness of                           Support Fund
                     agribusiness value chains*

                     Strengthens policy
                                                                  International Food
Agriculture Policy   analysis for food security
                                                  7/11    7/15    Policy Research      20,800,000
Project              and macroeconomic
                                                                  Institute
                     stability

                                                                  United Nations
Balochistan
                     Helps improve livelihoods                    (UN) Food and
Agriculture                                       1/09    12/15                        23,700,000
                     and food security                            Agriculture
Project
                                                                  Organization

                                                                  Dairy and Rural
                     Improves milk production
Dairy Project                                     7/11    7/14    Development          13,026,744
                     and increases sales
                                                                  Foundation

                                                                  Mennonite
                     Supports women’s
Entrepreneurs                                                     Economic
                     microenterprises in          6/09    6/14                         39,926,069
Project                                                           Development
                     vulnerable areas
                                                                  Associates

                     Assists small and
                     medium-size enterprises
                     in areas vulnerable to
Firms Project                                     5/09    4/13    Chemonics            77,457,147
                     conflict to help them
                     become internationally
                     competitive

                     Provides flood control
Gomal Zam            and irrigation water to
                                                  10/11   9/13    WAPDA                73,151,000
Irrigation Project   191,000 acres to increase
                     agricultural output




                                                                                              14
                                                        Start    End          Implementing   Funding
      Name                      Description
                                                        Date     Date           Partner        ($)

                          Provides technical
                          expertise to establish
                          public-private                                    International
Grain Storage
                          partnerships for              4/11      6/13      Finance           2,500,000
Project
                          managing, handling, and                           Corporation
                          storing strategic grain
                          reserves

                          Provides flood control
Satpara Irrigation        and irrigation water to                           Aga Khan
                                                        3/12      3/17                       20,428,595
Project                   15,500 acres to increase                          Foundation
                          agricultural output

                          Improves customs
                          procedures and the
                          Pakistani Commercial
Trade Project                                           6/09      6/13      Deloitte         37,298,193
                          Service to increase
                          exports and trade at the
                          Afghan border

                          Provides business and
                          legal capacity building and
                          exchanges for Pakistani
                          entrepreneurs and                     Reviewed
Transfer to DOC                                         2009                DOC               6,270,000
                          representatives of                     annually
                          government ministries,
                          universities, and legal and
                          business institutions

                          Improves production and
                          increases sales of
                          commodities, enhances
                                                                Reviewed
Transfer to USDA          government research and       2009                USDA             63,000,000
                                                                 annually
                          extension work, and
                          helps eradicate
                          agricultural diseases

                          Conducts feasibility
                          studies and provides
Transfer to               technical assistance in               Reviewed
                                                        2009                USTDA             8,000,000
USTDA                     transportation, energy,                annually
                          information technology,
                          and food security

Source: USAID/Pakistan.

                                                                                                    15
* A value chain includes all activities required to produce a product or service and deliver it to the final
  customer. Value chains include activities such as production, marketing, and distribution.


As of March 31, 2013, USAID reported that 819,394 rural households had benefited directly from U.S.
Government assistance. USAID also reported the following developments and achievements in its
portfolio of economic growth and agricultural programs:

    The Agribusiness Project made progress toward establishing agribusinesses that will achieve the
    project’s overarching objectives of generating employment and increasing the incomes of the project
    beneficiaries. During the reporting period, 7,451 rural households benefitted from the project’s
    interventions. These interventions included the formation of 419 farmer enterprise groups, the
    provision of grants to 1,136 women who are starting agribusinesses, the establishment of 25 grape
    and 5 pomegranate orchards, and the awarding of grants for 54 milk chillers.

    The Balochistan Agriculture Project sent 15 Pakistani farmers, sheep raisers, and government
    officials to Australia for a study tour covering all aspects of the sheep and wool value chains—e.g.,
    management of sheep, shearing, and equipment maintenance. The project also trained 32 farmers
    and extension workers on farm water management in Faisalabad for 10 days. In addition, project
    staff recruited 23 community development and marketing facilitators for the districts recently added
    to the project’s implementation area, training them in social mobilization, marketing skills, and group
    capacity building.

    Dairy Project training in farm, livestock, and milk management and artificial insemination has
    produced more than 3,000 new jobs in rural Punjab since the project’s launch in July 2011.

    The Entrepreneurs Project trained 9,130 producers in improved production practices during the
    quarter, bringing the total number of microenterprise owners assisted by this project to 49,344,
    86 percent of whom are women. During the quarter, the project signed a memorandum of
    agreement with Shakarganj Food Products Limited, a large Pakistani food manufacturing company
    that produces a range of dairy products as well as fruit juice concentrates. The agreement combines
    financial investment by a nationally recognized processor with capacity building and technical support
    from the project. In addition, the agreement will help link project beneficiaries in Bahawalpur and
    surrounding areas to the milk cold chain to provide for higher levels of production, a steady market,
    and increased incomes.

    The Firms Project continues to provide support to more than 2,942 small- and medium-size
    enterprises (SMEs) in 11 sectors of the economy by improving access to technology, markets, and
    finance, and by developing business skills. During the quarter, the project was able to assist an
    additional 558 SMEs directly, bringing the total to 3,500. Sales for these SMEs rose by 50 percent to
    $30 million. The project completed an analysis of the national policy, legal, and regulatory
    environment for SMEs, along with institutional assessments of Pakistan’s Small and Medium


                                                                                                         16
   Enterprises Development Authority and Federal Board of Investment; the respective Government of
   Pakistan authorities approved the documents.

   Work by WAPDA on the Gomal Zam Irrigation Project was 80 percent complete at the end of the
   reporting period. WAPDA completed all work on barrage and flood protection works, while the
   canal lining, drainage work, and construction of allied structures—i.e., bridges, falls, regulators, and
   outlets—are in progress. The project agreement was amended to cover work on the Waran Canal,
   a recent addition to the project area, on which work is scheduled to begin in June.

   The implementing partner for the Grain Storage Project, the International Finance Corporation,
   conducted a market sounding exercise to gauge investor interest in a silos project and determined
   that bidding on it should take place after general elections. The International Finance Corporation is
   now in discussions with the Governments of Sindh and Punjab on restructuring the project and
   continues to engage with potential bidders to raise awareness and interest. The implementer
   planned to revise the bid documents and share them, as well as the grain storage concession
   agreement, with the two provincial governments by May.

   The Satpara Irrigation Project is developing farm irrigation infrastructure that will meet commercial
   standards for the horticultural and dairy industries operating on 15,500 acres of farm land in the
   Skardu area of Gilgit-Baltistan. During the quarter, the project completed 82 percent of its baseline
   survey. The project also facilitated the registration of 82 water users’ associations with the
   provincial On-Farm Water Management Department, finalized its security plan, and approved a
   grant for a greenhouse.

   During the quarter, the Trade Project completed the deployment and installation of information and
   communications equipment and established power supply and Internet connectivity at eight customs
   stations along the Afghan trade corridor. The completion of these tasks will support the launch of a
   pilot Electronic Data Interchange system between the Afghan and Pakistani customs administrations.
   The project also held discussions with partners to develop an outreach campaign for Pakistan-India
   trade liberalization, while continuing research on the potential for intraindustry trade and bilateral
   investment with India.

USAID reported that security conditions and delayed visas posed challenges in implementing economic
growth and agricultural programs. In late March 2012, a Balochistan Agriculture Project vehicle was
attacked; two people associated with the project were killed, and a third was injured. In mid-August
2012, eight workers on the Gomal Zam Dam were kidnapped, and one was reportedly killed.
Additionally, the USAID mission noted that obtaining long-term visas for expatriate implementers has
been difficult.

USDA. USDA continues to manage agricultural capacity building and development programs with
funding from USAID. These programs are designed to increase agricultural productivity and improve
opportunities for international trade through technical exchanges, agricultural research, and control of

                                                                                                        17
plant and animal diseases. USDA partners with international organizations and U.S. land grant
universities that work with Pakistani Government agencies, universities, and agricultural research groups
to implement program activities. USDA also continues to work with provincial government authorities
and engage with the Ministry of National Food Security and Research.

USDA reported the following examples of progress and success for the quarter:

    Several noteworthy project developments took place under the Agricultural Information Services
    Project, designed to improve crop production reporting through remote sensing and field data.

    -   The Food and Agriculture Organization, one of USDA’s implementing partners for the project,
        unveiled a new pilot Web site bridging the capacities of Pakistan’s space agency and Punjab and
        Sindh provincial crop-reporting services. The Web site is intended to enable viewers to use
        crop data to help understand production trends.

    -   The University of Maryland is designing an agricultural monitoring system to enable the two
        Pakistani crop-reporting services, Pakistan’s space agency, and two universities to access satellite
        imagery and other data to make forecasts and estimates. Lists of hardware and software needed
        at the participating facilities were completed, and initial procurements and deliveries of
        equipment began during the reporting period.

    -   Plans were made for staff members from the two crop-reporting services and the space agency
        to attend 2-week training at the University of Maryland on the agricultural monitoring system.
        In addition, staff from two universities will be mentored for 8 weeks at the University of
        Maryland on how to use the agricultural monitoring system to produce better yield models and
        assessments of crop conditions, important factors in making accurate production estimates and
        forecasts.

    The Aquaculture Project, which aims to advance Pakistan’s aquacultural productivity through the
    introduction of soy-based fish feed, also made strides.

    -   An aquacultural expert provided by Kansas State University, one of USDA’s two implementing
        partners on the project, made a second trip to Pakistan in January to assess progress on the fish
        feed trials, meet with Pakistani fish farmers and a feed producer, and present feeding trial results
        to fish farmers and Pakistani officials. The best trial showed that fish raised on soy-based feed
        grew to twice the weight of other fish in half the time.

    -   The project brought the second in a series of three delegations of fish farmers and feed
        producers from Pakistan to the United States. During the visit, U.S. experts demonstrated how
        high-quality feed made from soybean meal is manufactured, and the group was able to observe
        features of the entire supply chain needed in a functioning market.



                                                                                                         18
-   Twenty-five metric tons of soybean meal was shipped from the United States to Oryza
    Organics, a Pakistani feed company partnering with the American Soybean Association under
    this project to produce high-quality fish feed. An extruder to be used by Oryza in
    manufacturing the feed also arrived in Pakistan during the quarter.

Under USDA’s project to develop solutions to cotton leaf curl virus, a USDA cotton scientist visited
Pakistani partner labs and reviewed progress on the development of biotechnology solutions to the
virus. Project plans now call for genetic material from cotton varieties that tested resistant to
cotton leaf curl virus in 2012 to be retested and a new set of varietals from the United States to be
field-tested in Pakistan.

USDA’s project on Demonstrating and Disseminating Best Practices and Technologies in Watershed
Rehabilitation and Irrigation Improvement to Help Rural Farmers added five new partner institutions
from Sindh and Balochistan Provinces to the six already working under the project in Punjab and
Khyber Pakhtunkhwa. In another move to extend the reach of the project, farmers and agricultural
professionals from Balochistan were included in training activities in Punjab.

In March, USDA scientists assessed field research in Pakistan conducted under the Wheat
Productivity Enhancement Project. They noted that the Ayab Agricultural Research Institute is
conducting field research on 25 acres. The Faisalabad-based institute’s research trials focus on
wheat strains proposed for release to farmers, as well as on those being assessed for rust resistance
and drought and heat tolerance. USDA scientists also observed the evaluation of various lines or
strains of wheat at the National Agricultural Research Council in Islamabad for yield potential and
rust resistance and at the National Uniform Yield Trial for positive and negative traits. The project
also reported accomplishments in other areas:

-   Three greenhouses have been completed at the Wheat Pathology Station in Muree, enabling
    Pakistani plant pathologists to segregate and maintain living cultures of the three primary wheat
    rust diseases.

-   New combines, planters, and stationary threshers purchased under the project were dedicated
    and presented to Pakistani scientists working with the program in Faisalabad, Islamabad, and
    Chokwal.

-   During the 2012-2013 wheat growing season, scientists throughout Pakistan participated in a
    National Rust Evaluation Survey. They sent rust samples to the lab in Muree, where
    pathologists determined the relative virulence of the rusts. This was the first survey to be
    conducted uniformly in Pakistan since the 1970s.

USDA is also building capacity among Pakistani Government plant and animal health regulators
through the Sanitary and Phytosanitary Distance Learning Project. The first workshop in an 18-
month course to train plant health regulatory officials was held in February 2013, with more than

                                                                                                  19
    25 attendees from the Department of Plant Protection, provincial agriculture departments, and
    private industry.

USTDA. USTDA activities improve infrastructure in energy, transportation, and information
technology and link Pakistani partners with U.S. exporters and American companies offering project
solutions. USTDA measures the success of its activities both in terms of exports of U.S. goods and
services and in terms of positive development effects in Pakistan.

USTDA works with Pakistani grantees in the public and private sectors to conduct feasibility studies and
technical assistance activities. USTDA competitively selects U.S. contractors to perform expert
assessments and reverse trade missions.5

During the reporting period, USTDA hosted eight senior Pakistani public and private sector bank
representatives for a 12-day reverse trade mission to the United States. Consistent with Pakistan’s
efforts to modernize its banking sector and broaden access to financial services, the reverse trade
mission highlighted U.S. technologies and solutions for secure and efficient banking, particularly relating
to mobile and Internet banking, anti-money-laundering solutions, fraud analytics, and solutions for
managing customer relationships. The delegates met with U.S. companies, banking and government
organizations, commercial banks and financial institutions, and banking information technology and
service providers.


Stabilization

The U.S. Government seeks to enhance stability in border areas and regions vulnerable to violent
extremism. The U.S. Government supports the Government of Pakistan in the Federally Administered
Tribal Areas (FATA) and Khyber Pakhtunkhwa through short-term development activities, long-term
investments in infrastructure, and support for incremental improvements in governance. Stabilization
activities are guided by the U.S. Government’s strategy for stabilization of Pakistan and closely aligned
with USAID’s 2010 Post-Crisis Needs Assessment for Khyber Pakhtunkhwa and FATA. Activities include
improving the responsiveness and effectiveness of the Pakistani Government in restoring citizen trust,
stimulating employment and livelihood opportunities, ensuring the delivery of basic services, countering
radicalization, and fostering reconciliation. DOS’s Bureau of International Narcotics and Law
Enforcement Affairs (INL) and the U.S. Embassy’s Political Section (POL) and Regional Security Office
(RSO) support assistance programs in this category, as do USAID and USIP.

INL. INL has seven programs in Pakistan that support improved security, legal reforms, and
counternarcotics efforts. Aside from the limited direct assistance it provides to Pakistani NGOs to
reduce demand for drugs, INL implements all of its projects in partnership with the Government of

5
  Reverse trade missions are trade delegation visits to the United States that enable foreign delegates to observe
the design, manufacture, demonstration, and operation of U.S. goods and services that could help the delegates
achieve development goals.


                                                                                                               20
Pakistan. Partners include the Ministry of Narcotics Control, the Ministry of Interior, the FATA
Secretariat, Pakistani police, and other civilian law enforcement agencies.

INL reported the following developments in its current programs:

     Aviation Program. INL’s 50th Squadron Air Wing provided air support to Pakistan Ministry of Interior
     agencies including the Pakistani police, to the Khyber Pakhtunkhwa and Baluchistan Frontier Corps
     and the Punjab and Sindh Rangers, and to the U.S. Embassy and several other agencies. The Air
     Wing flew 590 hours during the quarter. Air support was reduced this quarter because several
     aircraft were awaiting temporary deployment to Afghanistan. The aircraft are scheduled to return
     to Pakistan upon completion of maintenance activities.

     Corrections Program. INL’s Corrections Program continues to focus on training senior prison staff. A
     third group of Khyber Pakhtunkhwa provincial prison department officials attended courses at the
     International Corrections Management Training Center in Colorado. The Training Center teaches
     international standards and best practices in prison administration, including security procedures,
     external threat management, emergency responses, prisoner classification and segregation, logistics,
     and riot control.      In total, 23 Pakistani officials have now received training under the
     program. Senior Khyber Pakhtunkhwa officials told INL that the training has motivated the province
     to allocate almost $50 million for prison infrastructure improvements. INL has now extended
     agreements to send senior prison staff from Sindh and Balochistan Provinces to future training
     sessions.

     Counternarcotics Program. The UN Office on Drugs and Crime (UNODC) released the results of an
     INL-funded comprehensive drug user survey, which reports that Pakistan’s drug consumption
     problem is worsening. Drawing on survey data from the UN Population Fund and Pakistan’s
     National Institute of Population Studies, UNODC estimated that 6.4 million people aged 15 to 64
     (5.8 percent of the working-age population) had used illicit drugs within the past 12 months, and
     4.1 million of them can be classified as drug addicts. The report calls for increased attention to
     Pakistan’s drug treatment capacity, which currently serves only 1 percent of the country’s
     addicts. To address this need, INL continued to fund the Colombo Plan’s6 train-the-trainer
     program, which provided basic training to 30 Pakistani drug treatment specialists during the quarter.
     Meanwhile, INL also sponsored a UNODC-administered mass awareness campaign to spread
     antidrug messages to youth, parents, and teachers in six major cities of Khyber Pakhtunkhwa. This
     will be the country’s first modern, mass awareness campaign against drugs.

     Crop Control and Area Development, Border Security, and Infrastructure Program. During this reporting
     period, two Frontier Corps border posts were completed in the Chitral District of Khyber
     Pakhtunkhwa while another border post was completed FATA’s Khyber Agency. Construction of

 6
   The Colombo Plan is a regional intergovernmental organization that promotes economic and social development
 in Asia and the Pacific through technical cooperation and information sharing.


                                                                                                           21
the Levy lines (headquarters and barracks) in FATA’s Kurram Agency was 90 percent complete and
on schedule for its June 2013 deadline. Work on the Frontier Corps portion of the Spina Thana
operations center was also on schedule; construction of two Levy Force barracks at Spina Thana
was 75 percent complete and expected to be finished by July 2013. The Javed Iqbal Police Lines
(headquarters and barracks) in Mingora, Swat, was 90 percent complete and likewise expected to be
finished by July 2013. By the end of the reporting period, work on another major police training
facility, the Joint Police Training Center in Nowshera, was 42 percent complete and on schedule to
meet the September 2013 deadline.

Half of the construction work on the Peshawar Southern Ring Road has been completed, and
project work is expected to conclude in September 2013. Construction of 42 kilometers of the
Kanju-Madyan Road in Swat was also under way during the quarter with a revised expected
completion date of July 2013. Meanwhile, work on the 7-kilometer Mattani Bypass Road was
delayed because of the sustained military operations and curfew in the surrounding areas of Bara.
Construction of an additional 10 kilometers of road in the poppy-growing areas of Khyber Agency in
FATA and the Torghar and Kohistan Districts in Khyber Pakhtunkhwa began during the quarter.

Police Assistance Program. After Sindh police officials acknowledged that their police training
programs needed fundamental restructuring, INL assisted them in forming a curriculum
development team to address this problem. The nine-person team employed subject matter
experts to draft Urdu-language training modules that will incorporate Pakistani law and address
cultural sensitivities. During the quarter, one training module was completed and four others were
developed in draft. The complete, ten-module curriculum will be taught at all Sindh training centers
and the Sindh Police plan to use successful course completions as a basis for officer
promotions. Once this initiative is completed in Sindh, INL plans to replicate it in other provinces.

The Police Assistance Program procures equipment for the Sindh Police to enhance its capacity for
criminal investigative forensics. In 2013, the program signed a letter of agreement with the Sindh
Police to provide it with commodities valued at $8.1 million, including armored personnel carriers,
anti-riot gear, and body armor. The program also delivered explosive detectors and night-vision
equipment worth $450,000.           In addition, it established a partnership with the Australian
Government to set up a forensics lab and provide Sindh police personnel with training by equipment
vendors and subject matter experts.

International Criminal Investigative Training and Assistance Program (ICITAP) Training Program. ICITAP
trained 207 Pakistani police officers during the quarter, including 18 female officers. The program
provided forensics instruction to 27 Anti-Terrorism Court judges, prosecutors, and investigators
from across the country; the event was the first of its kind to bring judges, prosecutors, and police
together into the same training program. The program also trained instructors at Pakistan’s
National Police Academy on the use of a firearms simulator. In addition, the program completed
three rooms in the Islamabad police station to allow for more direct public access to the police. To



                                                                                                   22
    improve consistency in measuring and reporting on the effects of police training, the program held
    multinational meetings to standardize measurement and evaluation by donor nations.

    Rule of Law. After a 6-month gap due to the inability to obtain a Pakistani visa, a new Resident Legal
    Advisor arrived in late February 2013 to manage this program. The new advisor will conduct
    training and evaluation workshops and coordinate with international partners to assist with their
    efforts until U.S.-based trainers receive visas.

INL reported several program implementation challenges this quarter. Program staff noted that
collaboration with Pakistan’s Anti-Narcotics Force (ANF) under the Counternarcotics Program
deteriorated. Although the ANF’s Special Investigation Cell slightly increased Pakistan-based seizures
and arrests, ANF senior leadership denied several INL requests to visit field offices, even though
facilitating such visits is a written requirement of the funding agreement. These and other developments
have prompted INL to reevaluate the ANF portion of its Counternarcotics Program.

Meanwhile, according to INL, the Rule of Law Program continued to face visa problems. Despite
continuing local interest in the program on the part of judges and prosecutors, the program was unable
to hold any training events during the reporting period because U.S.-based trainers were not issued visas
to enter Pakistan.

Because of security concerns since September 2012, three American INL employees relocated from
Peshawar to Islamabad. Meanwhile, INL’s locally employed staff members are not permitted to work at
the INL Peshawar office annex and are working from home. This situation has adversely affected
project oversight in Khyber Pakhtunkhwa and FATA, which are a major focus of INL assistance in
Pakistan. INL is working with U.S. Embassy officials to arrange for permanent workspace for its locally
engaged personnel in Peshawar and is exploring other options for working through security restrictions
in Peshawar.

POL. The U.S. Embassy’s Political Section oversees implementation of the Export Control and Related
Border Security Assistance Program (EXBS) in Pakistan.

EXBS is designed to help participating countries improve their strategic trade and border control
systems. In Pakistan, EXBS assists the government in stemming the proliferation of weapons of mass
destruction and their delivery systems and in preventing irresponsible transfers of conventional
weapons.

Since 2004, Pakistan has made progress with EXBS assistance in strengthening its strategic trade
controls through legal and regulatory reforms and the development of licensing capability. Building on
these successes, EXBS aims to develop and expand the capacity of Pakistani law enforcement agencies to
counter the proliferation of weapons of mass destruction and related materials.




                                                                                                       23
Although Pakistan has made significant strides in adopting strategic trade control legislation, Pakistan’s
national control list omits several commodities and technologies controlled under multilateral export
control regimes, and this remains a concern. EXBS therefore promotes Pakistan’s adoption of a
comprehensive national control list that includes all commodities covered under the control lists of the
Nuclear Suppliers Group, Missile Technology Control Regime, Wassenaar Arrangement, and Australia
Group.

Pakistani border security agencies have poor communications infrastructure, lack needed equipment,
and face challenges in coordination across agency lines. Customs officer training is underdeveloped and
depends on foreign support. Accordingly, while maintaining its focus on trade controls, EXBS plans to
deliver more training and equipment to Pakistani customs agencies, especially the Federal Board of
Revenue. In addition, the program will continue to support cross-border cooperation between Afghan
and Pakistani agencies engaged in trade control regulation and enforcement. The Department of
Homeland Security provides training in support of EXBS activities in these areas.

RSO. The Department of State’s RSO contributes to improved counterterrorism capacity and legal
institutions in Pakistan through its Antiterrorism Assistance Program (ATA). The program builds
Pakistani law enforcement capacity to detect, deter and respond to terrorist threats, providing a range
of tactical and investigative courses and support to officials from all of the country’s provinces and the
Frontier Corps. The program’s focus in Pakistan is on building law enforcement capacity to secure land
borders, build investigative skills and cooperation between police and prosecutors, and respond to
terrorism incidents.

DOS reported that Pakistani officers are enthusiastic about participating in ATA courses, learning
counterterrorism skills, and using those skills in their daily work. Officers trained by ATA in explosive
detection have used their training in high-threat assignments. ATA assistance has also enabled
authorities to expand institutional capacity to respond to threats.

Notwithstanding these successes, DOS reported that difficulties obtaining visas for instructors
continued to hinder program implementation. The program is working to resolve these difficulties and
noted some improvement in early 2013. ATA courses were, nevertheless, several months behind
schedule at the end of the reporting period.

USAID. USAID had 13 stabilization programs and 2 related monitoring activities under way at the end
of the quarter (Table 5). These programs provide cash transfers to compensate for housing damage,
deliver vocational training, and fund improvements in roads and electricity generation.




                                                                                                       24
         Table 5. USAID Stabilization Programs as of March 31, 2013 (Unaudited)

                                                  Start   End       Implementing         Funding
      Name               Description
                                                  Date    Date        Partner              ($)

Benazir Income
                   Provides cash assistance                       BISP, Government
Support Program                                   6/09    6/10                           160,000,000
                   to needy families                              of Pakistan
(BISP)*

                                                                  National Database
Citizens’ Damage   Provides cash assistance                       and Registration
Compensation       to flood-affected              6/11    6/12    Authority,             190,000,000
Fund*              households                                     Government of
                                                                  Pakistan

                   Provides medical, psycho-
                   social, and livelihoods
Conflict Victims   support to Pakistanis                          International Relief
                                                  4/12    4/15                            24,545,806
Support Project    directly affected by                           and Development
                   violence in FATA and
                   Khyber Pakhtunkhwa

                   Provides equipment and
                   mobile health units,
FATA Child
                   reconstructs facilities, and   9/06    3/13             ***            26,150,000
Health Project
                   trains health-care
                   providers

                   Improves access to
FATA / Khyber      community-based
Pakhtunkhwa        integrated family planning     9/12    9/17             ***             5,000,000
Health Program     and maternal and child
                   health services

                   Improves roads; water
FATA               infrastructure; and
Infrastructure     electricity generation,        12/09   12/14   FATA Secretariat       278,686,537
Program            distribution, and
                   transmission




                                                                                                 25
                                                  Start   End      Implementing        Funding
      Name                 Description
                                                  Date    Date       Partner             ($)

                     Increases the FATA
                     Secretariat’s capacity in
FATA Institutional   participatory planning,
Strengthening        management, and              8/11    9/16             ***          14,298,085
Project              oversight of stabilization
                     and development
                     activities

                     Provides grants for the
Khyber               restoration of damaged
Pakhtunkhwa,         infrastructure and
FATA, and            disrupted services,
                                                  7/10    12/15   World Bank            25,000,000
Balochistan          improvement of
Multi-Donor Trust    government services, and
     †
Fund                 maintenance of
                     community livelihoods

                     Supports the
                                                                  Government of
                     reconstruction and
                                                                  Khyber
                     recovery of conflict-
Khyber                                                            Pakhtunkhwa’s
                     affected districts and
Pakhtunkhwa                                                       Provincial
                     increases capacity for       3/10    12/14                        130,683,047
Reconstruction                                                    Reconstruction,
                     management and
Program                                                           Rehabilitation and
                     oversight of stabilization
                                                                  Settlement
                     and development
                                                                  Authority (PaRRSA)
                     activities

Malakand and         Provides housing damage
FATA Housing         assistance through a cash    6/10    9/12    PaRRSA                65,000,000
Support Program*     transfer

                     Supports monitoring and
Monitoring and       verification of USAID
                                                  12/09   12/14            ***           6,436,537
Evaluation – FATA    investments in road and
                     electricity infrastructure

                     Supports monitoring and
Monitoring and
                     verification of USAID
Evaluation –                                      4/10    12/14            ***           6,260,000
                     investments in small-scale
Malakand
                     infrastructure




                                                                                               26
                                                      Start       End          Implementing            Funding
        Name                    Description
                                                      Date        Date           Partner                 ($)

                                                                             International
                          Supports conditions for
                                                                             Organization for
Pakistan                  stability and development
                                                                             Migration, Creative
Transition                in conflict-prone and       11/07        9/15                               264,576,547
                                                                             Associates
Initiative                other priority areas of
                                                                             International,
                          Pakistan
                                                                             Internews, BEFARe

                          Funds the reconstruction
Peshawar-                 of the Peshawar-Torkham
                                                       9/12        9/14              ***                70,000,000
Torkham Road              Highway in Khyber
                          Pakhtunkhwa

Radio
Transmitters in
                          Provides radio
FATA and Khyber                                        6/10        4/13              ***                 8,656,471
                          transmitters
Pakhtunkhwa
Project


Source: USAID/Pakistan.

Note: A triple asterisk (***) indicates the name of a USAID implementing partner withheld for security reasons.

*   USAID has fully disbursed assistance dollars to BISP, the Citizens’ Damage Compensation Fund, and the
    Housing Support Program but continues to monitor rupee disbursements to beneficiaries.

†   USAID has also fully disbursed assistance dollars to the Multi-Donor Trust Fund for Khyber Pakhtunkhwa,
    FATA, and Balochistan but continues to monitor project implementation activities.


As of March 31, 2013, USAID reported that 587 kilometers of road had been constructed or repaired
with U.S. Government assistance. USAID also reported the following program developments in its
stabilization portfolio for the quarter:

    The Conflict Victims Support Project is designed to assist approximately 4,500 families affected by
    conflict-related violence in FATA and Khyber Pakhtunkhwa. Project agreements were signed with
    the FATA Secretariat and the Planning and Development Department of the Government of Khyber
    Pakhtunkhwa, and the project established five community advisory committees, including one to
    assist female victims. The advisory committees promote local ownership of project activities and
    engage communities in verifying the eligibility of beneficiaries. The project implemented a database
    to track project beneficiaries. Major accomplishments to date include:

    -    Identifying 2,549 potential beneficiaries, of whom 623 met eligibility criteria.



                                                                                                                  27
-   Providing training to transfer employable skills to 325 beneficiaries through two vocational
    training institutes. The project also identified 236 orphans and children of conflict-affected
    families to receive educational scholarships.

-   Performing a capacity assessment of 100 training institutions, 12 of which were placed on a
    short list to deliver vocational training to project beneficiaries.

-   Initiating activities with three major hospitals in Peshawar for the provision of in-kind support to
    strengthen their emergency ward capacity.

-   Launching an outreach campaign through interaction with institutions in 15 targeted
    communities. The project distributed more than 2,000 leaflets in areas with a high
    concentration of conflict victims, and the project call center has received more than 1,050 calls
    from conflict-affected areas since it opened in November 2012.

The FATA Child Health Project was extended through March 2013 to allow for installation of
additional solar power systems. The project worked to increase the use of key health services and
instill behaviors that support the health and development of children. During the quarter, the
project reached:

-   1,992,255 children and mothers through 15,823 Health, Immunization, and Nutrition Days at the
    health facility and community level.

-   96,532 people through 891 medical camps at mobile health units.

-   405,763 people through 40,954 awareness-raising sessions.

-   8,236 health-care providers through 488 training sessions.

In addition, the project reported the following achievements:

-   Reconstructing 12 community health centers and 1 civil hospital.

-   Renovating 126 health facilities.

-   Providing five mobile health units and three ambulances to extend health services to
    communities in Bajaur, Mohmand, and South Waziristan Agencies.

-   Establishing immunization cold rooms at the FATA Directorate of Health Services and Civil
    Hospital in Jamrud, Khyber Agency.




                                                                                                     28
-   Providing three vaccine cold chain vehicles to transport vaccines from immunization cold rooms
    to Agency headquarter hospitals.

-   Providing solar refrigerators to 60 health facilities

-   Converting nine reconstructed health facilities and one immunization cold room to solar energy
    systems.

-   Providing equipment and furniture to 260 health facilities.

The FATA / Khyber Pakhtunkhwa Health Program signed memorandums of understanding with the
Khyber Pakhtunkhwa Health Department and the FATA Secretariat. Both government entities
endorsed project work plans, and the project established offices in Dir Upper, Dir Lower, Shangla,
and Malakand Districts. In addition, the project trained 30 female health supervisors in Mohmand
and Bajaur Agencies and conducted training sessions on integrated management of neonatal and
childhood illness in Peshawar and Swat for a total of 47 health-care providers.

The FATA Infrastructure Program completed 18 kilometers of road during the reporting period,
including 8 kilometers of the Wana-Makin Road, 6 kilometers of the Bannu-Miran Shah Road, and
4 kilometers of the Tank-Dera Ismail Khan Road. Work on the Barang Road progressed with the
conclusion of efforts to rehabilitate a retaining wall, and the first 9-kilometer section of the
Peshawar-Torkham Highway rehabilitation project was reported as 15 percent complete.
Meanwhile, the Jandola-Sararogha Bridges were completed, and preparatory work for the
reconstruction of the Silay Patay Bridge advanced.

The FATA Institutional Strengthening Project reported several accomplishments:

-   Completing a performance management road map for the Health Directorate that explains
    goals, outcomes, outputs, and the performance indicators required for implementation of the
    FATA monitoring and evaluation framework.

-   Starting work on performance monitoring software that will address service delivery and
    development project performance monitoring requirements.

-   Airing radio programs on FATA Secretariat’s development initiatives 6 days a week since
    February 2013, and preparing a video documentary on development initiatives in Bajaur Agency.

-   Developing and deploying a management information system to enhance the transparency and
    efficiency of FATA Secretariat income supplements funded through religious taxes (zakat).

-   Developing an Agency Development Plan for South Waziristan to inform future USAID
    activities.


                                                                                               29
-   Completing the first draft of the Work Force Development Study for Khyber Pakhtunkhwa and
    FATA.

-   Submitting a study on strengthening the Women’s Empowerment Wing with recommendations
    for related action to the FATA Secretariat.

-   Organizing a visit by FATA local government officials to Punjab government institutions in March
    that enabled the officials to gain first-hand knowledge of local best practices and systems and to
    learn about resulting development and service achievements.

In March, the Khyber Pakhtunkhwa Reconstruction Program completed the reconstruction of three
schools in Swat District and provided supplies and furniture to four others. The Amandara and
Munda Headworks neared its conclusion, and work on the Khwazakhela Bridge reached 45 percent
completion. Implementation began on water and sanitation works in Buner District, and USAID
engineers started reviewing designs for water and sanitation projects in Swat District. Meanwhile,
construction work continued on five health facilities.

The Malakand and FATA Housing Support Program compensates beneficiaries whose houses were
damaged during the militancy and ensuing military operations that concluded in 2009. To date,
16,850 households have received compensation. Out of the total amount authorized for
disbursement to beneficiaries by USAID, at the end of the reporting period PaRRSA had a balance of
$1.2 million. This amount was expected to be disbursed to beneficiaries by April. PaRRSA was
expected to seek authorization for disbursements to remaining beneficiaries in Malakand and FATA
during the following quarter. All beneficiary disbursements under the program are projected to be
completed by September 2013.

The Pakistan Transition Initiative continues to achieve results through its media program. The
initiative has supported Pakhtunkhwa Radio Peshawar (PRP) and four other government-owned
stations in the region to improve the quality of their content and better meet the interests of
listeners. Last quarter, PRP launched a “Fix It” program that aims to bring people and the
government together to identify and address community issues. The new program is modeled on a
popular community-based program aired by independent and community radio stations in
Afghanistan; PRP managers and producers learned about it during a cross-border study trip
sponsored by the initiative in May 2012. The Pakistan Transition Initiative has also formed
partnerships with three local university journalism departments to build their capacity. These
partnerships contributed to the recent nationwide adoption of a new journalism curriculum by
Pakistan’s Higher Education Commission (HEC).

The Peshawar-Torkham Road (a section of National Highway N-5) is under construction, and work
is on schedule for this USAID-funded activity. More than 15 percent of Section 1 of the road was
completed, and work began on Section 2.



                                                                                                   30
    The Pakistan Broadcasting Corporation released funds for power connections at the two
    transmitter sites under the Radio Transmitters for Pakistan Project, and the Dera Ismail Khan site is
    preparing for transmitter testing and commissioning. The project is on track for completion next
    quarter.

USIP. USIP supports stabilization in Pakistan by promoting religious tolerance and peaceful interfaith
dialogue while countering extremist messages. USIP is working to accomplish these objectives through
a 2½-year program with three components: (1) a grant program to build the capacity of civil society to
counter extremism and promote peace and religious tolerance, (2) content analysis and mapping of local
media outlets and the extent to which they broadcast or publish extremist or counter extremist
messages, and (3) policy research on and analysis of religious intolerance and extremism.

USIP grantees remain active in creating programs on education, consensus building, conflict resolution,
and other topics. This quarter, a grantee organized six media forums across the country, generating
debate on tolerance and extremism in the media. Another produced an average of 20 live radio shows
per month on six radio stations; these programs created interactive sessions with youth, women,
political leaders, and elders. Grantees have also hosted a range of training events aimed at teachers,
youth leaders, law enforcement trainers, and community reporters for one grantee’s radio program.

Also during the quarter, USIP issued a special report with recommendations for those seeking to build
an effective communications strategy to counter extremist messages in Pakistan. In addition, USIP
recently commissioned a study on the nexus between terrorism and criminal activity. The study will be
based on law enforcement data on crimes connected to terrorists or their organizations.


Education

Pakistan’s education system faces serious challenges. According to the UN Educational, Scientific, and
Cultural Organization’s 2012 Education for All Global Monitoring Report, Pakistan ranks 113 out of
120 countries on the Education for All Development Index. Pakistan’s school system is beset by chronic
underfinancing, poor quality, and corruption, resulting in some of the worst and most inequitable results
on education indicators in South Asia.

Less than three-quarters of school-age children are enrolled in primary school, and Pakistan is host to
the world’s second largest population of out-of-school children (5.1 million). Children who do attend
school encounter teachers who are ill prepared for the job and poorly equipped classrooms. Primary
school teachers face classrooms with an average of 40 students, almost twice the world average. Only
45 percent of children complete Grade 5; of those, less than half can read a simple sentence. Thirty
percent of adults in Pakistan are illiterate.

In higher education, Pakistan remains far behind most of its neighbors in terms of quality, access, and
capacity. Institutions of higher learning in Pakistan lack productivity-enhancing technologies, and
university graduates are not always prepared to lead the country’s growth. In 2011, only 7.8 percent of

                                                                                                      31
17- to 23-year-olds in Pakistan had access to higher education. This is a significantly smaller proportion
than in Nepal (10 percent) and similar to rates in sub-Saharan Africa.

The United States aims to improve access to high-quality education through its assistance to provincial
governments and universities. Assistance includes repairing and rebuilding schools and colleges,
providing teaching and learning materials, renovating and building teacher education facilities, improving
teacher preparation, strengthening the reading skills of primary-grade students, improving provincial and
district management and policies, developing financial aid programs for university scholarships,
supporting faculty exchanges in applied research in key disciplines, and fostering effective civil society
involvement in education. In addition, USAID and the U.S. Embassy’s Public Affairs Section (PAS)
support programs that promote faculty and student exchanges, U.S. university scholarships, and U.S.-
Pakistan university partnerships.

PAS. PAS focuses on maintaining academic and professional exchange programs and expanding in-
country English instruction and alumni programs. PAS exchange programs are largely implemented
through U.S.-based, nonprofit institutions, but related outreach and recruitment activities are conducted
in association with Pakistani Government entities, the media, educational institutions, and NGOs. The
U.S. Educational Foundation in Pakistan (i.e., the Fulbright Commission), in particular, is heavily engaged
in the recruitment and selection of participants for academic and professional programs and provides
support for program alumni.

PAS opened the application season for the Fulbright Master’s and Ph.D. Program’s 2014-2015 academic
year and set May 15, 2013, as the due date. PAS and the U.S. Educational Foundation in Pakistan led
information sessions about the program throughout Pakistan and appeared on television and radio talk
shows to discuss the application process and raise awareness of the program opportunity.

An evaluation of the Fulbright program is under way. Management Systems International (MSI), the
contractor hired to complete the evaluation, finished collecting data from Fulbright alumni, employers of
scholars, HEC, and the Fulbright Commission through a series of meetings, online surveys, and phone
calls. MSI was expected to complete its report by late April.

PAS continues to develop relationships with universities throughout Pakistan that connect U.S. and
Pakistani institutions. Collaborating with U.S. and Pakistani partner institutions enables PAS to extend
its reach to key audiences and promote academic and cultural exchanges in the liberal arts and
humanities. During the reporting period, PAS established relationships with four new Pakistani
universities: the Kinnaird College for Women, the National Academy for Performing Arts in Karachi, the
University of Azad in Jammu and Kashmir, and the University of Karachi. PAS subsequently solicited
bids from U.S. universities for exchange programs with these universities in American literature, music,
applied linguistics, and public administration. PAS is also developing partnership opportunities with the
Indus Valley School of Art and Architecture, Lahore College for Women, and the National College of
Arts.
PAS reported that program participants and partners continued to face harassment during the reporting
period. According to PAS, domestic security agencies harassed Pakistani citizens who participated in
                                                                                                        32
PAS exchanges, organizations that implemented PAS programs, and attendees at PAS-sponsored
events. Representatives from domestic security agencies regularly follow PAS personnel to meetings
with implementing partners and stay until meetings are finished to question partner organization
representatives. PAS is concerned that such sustained harassment could harm its programs in the long
run.

USAID. At the end of the reporting period, USAID had six education programs and projects under
way and one transfer of funds to another agency (Table 6). These programs focused on improvements
in basic and higher education by providing training for teachers, scholarships for students and professors,
and support for reconstruction and renovation of schools.

           Table 6. USAID Education Programs as of March 31, 2013 (Unaudited)

                                                  Start       End         Implementing          Funding
      Name                  Description
                                                  Date        Date          Partner               ($)

Earthquake-
Damaged Schools       Reconstructs earthquake-                          CDM Constructors
                                                  10/06       4/13                              147,454,624
Reconstruction        damaged schools                                   Inc. (CDM)
Program

Merit and Needs-      Provides bachelor’s and
Based Scholarship     master’s degree              6/04       3/20      HEC                       13,223,605
Program               scholarships

                      Supports early grade
Sindh Basic           reading, provides
                                                                        Sindh Department
Education             technical assistance, and    9/11       9/16                              113,576,111
                                                                        of Education
Program               supports reconstruction
                      of schools

                                                                        Educational
Teacher Education     Provides preservice
                                                   5/11       9/13      Development               39,800,000
Project               education for teachers
                                                                        Center

United States-        Provides opportunities
Pakistan Science      for cooperation between
                                                                        National Academy
and Technology        Pakistan and the United      9/05       7/18                                12,502,034
                                                                        of Sciences
Cooperative           States in science and
Program               technology

                      Supports construction of
Women's Hostel        a 360-bed women’s                                 Forman Christian
                                                   7/11       8/14                                 6,000,000
Project               dormitory at Forman                               College
                      Christian College



                                                                                                        33
                                                      Start     End         Implementing        Funding
      Name                      Description
                                                      Date      Date          Partner             ($)

                          Provides scholarships to                        PAS and United
Transfer to
                          Pakistani graduate                  Reviewed    States Educational
PAS – Fulbright                                       9/04                                      171,000,000
                          students to study at U.S.            annually   Foundation in
Scholar Program
                          universities                                    Pakistan

Source: USAID/Pakistan.


As of March 31, 2013, USAID reported that U.S. Government-supported education programs had
strengthened the skills of 8,223 educators since October 2010. USAID also reported the following
education project developments during the quarter:

    USAID assisted HEC in developing a Government of Pakistan project paper for the expansion of the
    Merit and Needs-Based Scholarship Program through 2020. The project paper includes plans to
    offer more than 2,300 full scholarships to economically disadvantaged young people—at least 50
    percent of whom will be women—for bachelor’s or master’s degrees at Pakistan’s top universities.

    USAID worked with the Sindh Department of Education to map schools in seven target districts in
    Sindh and five target towns in Karachi for school consolidation and construction under the Sindh
    Basic Education Program. School mapping and data collection were completed, and the program
    shared results and data with government officials, donors, and civil society during a workshop.
    Further, the program set up a Web portal so that the public and other donors have access to
    information on schools in these districts.

    The Teacher Education Project continued to emphasize capacity development and training. During
    the reporting period, the project organized 89 training workshops, assisted 13 universities in
    developing strategic plans, and helped 38 teacher training colleges prepare plans to improve
    infrastructure and build capacity. These plans will serve as the basis for needs-based grants under
    the program. In addition, the project awarded 540 scholarships for 2-year and 4-year degree
    programs throughout the country.

    USAID is in the process of building 16 state-of-the-art schools of education at Pakistani universities.
    USAID funds the design of the buildings to meet specifications developed by participating universities
    in consultation with the Teacher Education Project. Construction continued on six facilities, while a
    contractor was selected for a seventh building. Meanwhile, project participants selected a Pakistani
    firm for construction of the remaining ten schools of education.

    The National Academy of Sciences held Pakistan’s first national symposium on technology transfer
    for economic development in January and early February under the United States-Pakistan Science
    and Technology Cooperative Program. More than 180 researchers participated.

                                                                                                        34
Health

Pakistan struggles with the equitable provision of basic health services to its rapidly growing population.
Poor access to essential services increases the risk that women and children will die from preventable
diseases and suffer from high morbidity, while limited access to contraceptives contributes to the
nation’s high fertility rate. According to the World Health Organization, Pakistan has the highest rate of
stillbirths and the second-highest rates of newborn, infant, and child mortality in the region. A higher
proportion of Pakistani women die during childbirth than in any other country in the region except
Afghanistan and Laos.

Health sector responsibilities were transferred to the provinces following the enactment of the
18th Amendment to Pakistan’s Constitution in 2010. However, according to USAID, the transfer was
initiated without adequate planning or strategic dialogue. The provinces have limited financial and
human resources with which to address additional health-care functions, and remaining federal
responsibilities are fragmented and uncoordinated. A lack of federal and provincial leadership and
ongoing disagreements over financial responsibilities have hampered some basic primary and preventive
health services.

Pakistan has the fourth-highest maternal mortality ratio in Asia, and fewer than four in ten births are
attended by skilled health personnel. More than three in ten children in Pakistan are underweight.
Pakistan is one of three countries where polio is still endemic, and the Afghanistan-Pakistan border areas
are regarded as the greatest challenge to polio eradication globally.

The U.S. Government supports the Government of Pakistan and Pakistan’s private and nonprofit sectors
in accelerating progress toward child and maternal health goals by expanding high-quality, cost-effective
maternal, newborn, and child health services and increasing health service demand and access among the
nation’s poor. The health program portfolio seeks to improve access to and quality of essential family
planning and maternal and child health services through public sector capacity building, public and private
sector service delivery, and the establishment of public-private partnerships.

USAID. During the reporting period, USAID had seven programs and one transfer of funds to another
agency to support health services in Pakistan (Table 7). These programs focus on improving maternal
and child health, family planning, and polio eradication. USAID works to strengthen health systems
through policy reform, technical assistance, human resource development, improvements to public
sector procurements of contraceptive commodities and other key health supplies, and enhancements to
logistics and supply chain management systems. USAID also continues to dedicate significant resources
to support Pakistan’s Emergency Polio Eradication Program.




                                                                                                        35
             Table 7. USAID Health Programs as of March 31, 2013 (Unaudited)

                                                 Start    End          Implementing        Funding
      Name                Description
                                                 Date     Date           Partner             ($)

                    Supports a survey to
Demographic and                                                      Macro International
                    collect data on national     1/11     12/15                              3,700,000
Health Survey                                                        Inc.
                    health indicators

                    Assists with the
Health Care         devolution of public
Management          health responsibilities      1/11      3/13      John Snow Inc.          3,000,000
Project             from federal to provincial
                    ministries

Health Services     Develops institutional
                                                                     Health Services
Academy Support     capacity in public health    7/08      3/13                              7,247,527
                                                                     Academy
Project             training and research

Jacobabad Civil
                    Hospital renovation          10/10    10/13      CDM                    11,049,000
Hospital Project

                    Reconstruction of an
Jinnah Post-
                    extension to the
Graduate Medical                                 10/10    10/13      CDM                     5,629,069
                    obstetrics and
Center Project
                    gynecology/fistula ward

                                                                     John Snow Inc.,
                    Provides an integrated
                                                                     Population Services
Maternal and        program of health
                                                                     International /
Child Health        services to save lives of    5/12      5/17                            208,044,068
                                                                     Greenstar, Jhpiego,
Program             women, infants, and
                                                                     and Marie Stopes
                    children
                                                                     International

                    Provides support for
                    national polio eradication                       UN Children’s Fund
Polio Vaccination   efforts through national             Reviewed    (UNICEF) and the
                                                 1/03                                       24,370,271
Program             campaigns, disease                    annually   World Health
                    surveillance, and                                Organization
                    communications




                                                                                                   36
                                                 Start    End         Implementing         Funding
        Name                    Description
                                                 Date     Date          Partner              ($)

Transfer to the
Centers for
Disease Control                                                     CDC, U.S.
and Prevention            Provides training to                      Department of
                                                 8/05     11/14                             6,783,494
(CDC) – Field             epidemiologists                           Health and Human
Epidemiology and                                                    Services
Laboratory
Training Program


Source: USAID/Pakistan.


As of March 31, 2013, USAID reported that five polio immunization campaigns had been completed with
U.S. Government support since the start of FY 2013. USAID also reported the following health
program developments this quarter:

    With technical and operational assistance from USAID implementing partners, the Pakistani
    Government conducted one national and four subnational polio immunization campaigns since the
    beginning of FY 2013 in 163 districts, agencies, and towns. In total, 32.7 million children were
    vaccinated during these campaigns. These intensified polio immunization efforts may have
    contributed to a reduction in cases, as the number of new cases in Pakistan dropped from 198 in
    2011 to 58 in 2012. Only five cases have been detected in 2013.

    A groundbreaking ceremony for the Jacobabad Hospital took place on February 15, following the
    selection of a contractor for the project.

    Several components of the Maternal and Child Health Program made headway during the quarter:

    -   USAID began cultivating key relationships within Sindh Province’s Department of Health. In
        addition to inviting senior Health Department leaders to join the second partners’ meeting of
        the Quarterly Maternal and Child Health Program in Karachi, USAID facilitated in-depth
        briefings between its partners and senior Health Department officials to solicit feedback on
        planned activities and identify areas for collaboration.

    -   The health communications component led a workshop with key stakeholders on the 5-year
        behavior-change communication strategy, which they are currently drafting. The program also
        conducted consultations with key stakeholders to develop creative concepts for messages on
        breast-feeding and birth spacing.




                                                                                                   37
   -   Health commodity orders were placed in January following provincial, regional, and private
       sector consultations for FY 2013 contraceptive commodity forecasting and procurement.
       Commodity shipments began to arrive in-country during the reporting period.

   -   To prevent contraceptive stock-outs in the wake of political uncertainty surrounding the
       upcoming elections, the project successfully developed countrywide contraceptive distribution
       and transportation plans. With Pakistani Government approval, the central warehouse began
       supplying 6 to 9 months of stock to all 143 districts of Pakistan with the in-country
       transportation assistance of the program’s commercial partner, the United Parcel Service.

USAID continued to report major challenges to polio eradication efforts. In light of the December 2012
killing of polio eradication workers, the National Polio Program increased security, assigning police to
accompany vaccinators on their rounds. In January and February, two police officers protecting polio
teams in the Swabi and Mardan Districts of Khyber Pakhtunkhwa were shot and killed. Despite the
killings, campaigns continued in both districts. Following delayed payments of polio workers by the
World Health Organization, however, part of a planned polio campaign in Quetta was not completed in
late March.


Crosscutting Priorities: Good Governance, Gender Equity, and Greater
Transparency

The crosscutting priorities of U.S. Government assistance—improved governance, gender equity, and
greater transparency—are integrated, as appropriate, into programs in the sectors discussed in the
previous sections of this report. The U.S. Government also supports programs focused exclusively on
these areas. DOS’s Bureau of Democracy, Human Rights, and Labor (DRL), the Embassy’s PAS, and
USAID support programs in this category of assistance.

DRL. DRL supports ten projects that strengthen human rights, support democratic institutions,
promote fair labor standards, and encourage interfaith dialogue (Table 8).

 Table 8. DRL Human Rights and Democracy Programs as of March 31, 2013 (Unaudited)

                                                   Start    End         Implementing          Funding
       Name                  Description
                                                   Date     Date          Partner               ($)

                      Supports human rights
Balochistan
                      initiatives in Balochistan   10/11    9/13      Consulate Karachi         500,000
Initiative
                      through small grants

                      Monitors, documents, and
Documenting                                                           International
                      analyzes reports of
Human Rights                                       9/12     3/15      Commission of            1,300,000
                      human rights abuses by
Abuses                                                                Jurists
                      security forces


                                                                                                     38
                                                  Start   End       Implementing         Funding
      Name                Description
                                                  Date    Date        Partner              ($)

                    Advocates for the rights
Empowering                                                        International
                    of home-based workers,
Home-Based                                        9/11    1/14    Catholic Migration      682,186
                    strengthens cooperatives,
Women Workers                                                     Commission
                    and builds their capacities

                    Increases the capacity,
Ensuring the
                    sustainability, and
Protection of
                    geographic reach of local
Human Rights                                      9/11    9/13    Freedom House           792,080
                    organizations that protect
Defenders and
                    human rights workers
Journalists
                    and journalists

                    Supports development of
Ethnic and          enhanced madrassa
                                                                  International Center
Religious           teaching materials and a
                                                  9/11    3/13    for Religion and        410,000*
Minorities School   university madrassa
                                                                  Diplomacy
Curriculum          teacher training
                    certificate course

                    Increases skills of
Promoting Media
                    journalists and civil
Transparency on
                    society groups; works         9/11    9/13    Internews              1,229,700
National Security
                    with media outlets to
Issues
                    reach broader audiences

                    Promotes peaceful
                    coexistence, mutual
Promoting
                    understanding, and                            Church World
Peaceful Co-                                      1/11    12/14                           648,543
                    respect among religious                       Service
Existence
                    minorities and the Muslim
                    majority in Pakistan

                    Enhances the role of the
                    legal profession and the
Protecting Human
                    justice sector in                             American Bar
Rights While
                    protecting and                7/12    6/14    Association Rule of     990,099
Countering
                    strengthening human                           Law Initiative
Terrorism
                    rights and the rule of law
                    in national security




                                                                                               39
                                                      Start       End          Implementing             Funding
      Name                    Description
                                                      Date        Date           Partner                  ($)

                        Increases the capacity of
Strengthening
                        elected women
Women
                        parliamentarians by                                 Search for Common
Parliamentarians                                      9/11        9/13                                    909,000
                        bolstering engagement in                            Ground
for Effective
                        decision making at the
Government
                        provincial levels

                        Builds organizational and
                        management capacity of
Strengthening           trade unions and
Worker and Trade        workers’ organizations in     4/09        9/13      Solidarity Center           1,095,049
Union Rights            collective bargaining, dues
                        collection, recruitment,
                        and other areas

Source: DRL.

*   This program operates in both Pakistan and Saudi Arabia. The funding figure provided is for the Pakistan
    component of the program.


DRL provided the following information regarding program developments during the quarter:

    DRL’s Strengthening Women Parliamentarians for Effective Government Program completed all of
    the training events planned under the grant. In total, 165 women politicians, including 75 members
    of provincial assemblies and 90 councillors, have been trained under the program. Meanwhile, the
    first of a series of women's leadership forums was held with participants from Punjab and
    Balochistan, and a radio talk show campaign on women’s role in learning in leadership was launched.

    Local partners under the Ensuring the Protection of Human Rights Defenders and Journalists grant
    undertook several activities to help protect human rights workers and journalists. One partner
    completed a visual mapping of support services for human rights advocates in high-risk areas,
    performed monitoring of the media coverage of human rights issues, held a workshop on the
    physical and digital security of advocates for human rights, and prepared for upcoming security
    workshops and workshops on maintaining and leveraging human rights organizations’ relationships
    with police and the media. The partner is also working with police and local networks to recruit
    participants for roundtable discussions and conducting needs assessments for their regional
    partners’ physical security. The other partner under the project conducted baseline surveys on the
    security of news organizations and press clubs in conflict areas, began drafting a security handbook
    for news organizations, and prepared standard operating procedures for conducting security
    evaluations. Since February this partner has also been distributing monthly threat bulletins
    highlighting the most recent threats of violence against journalists.

                                                                                                               40
    The Promoting Peaceful Co-Existence grant implemented two training events for 47 religious and
    community leaders on interfaith harmony in Punjab and Sindh. The training sessions heightened
    awareness of religious intolerance, and participants from different religious groups discussed the
    constraints that prevent them from establishing peaceful relations with those of other religious
    faiths. Participants stressed the need to organize interfaith dialogue among followers of different
    religions. Another event in Faisalabad, which brought together religious and youth leaders,
    recognized the importance of including interfaith harmony in academic curricula and activities.
    DRL’s implementing partner for the project also organized two visits for religious and community
    leaders to a district in Punjab with a large Sikh population with the aim of educating participants
    about peace and tolerance in Sikhism.

    Under the Strengthening Worker and Trade Union Rights Project, the implementing partner
    initiated trainings for local union executive boards of affiliates of the Pakistan Workers Federation
    and the Muttahida Labour Federation. DRL’s partner conducted five 2-day trainings and one 1-day
    training for 162 participants from ten affiliates in Karachi, Sukkur, and Lahore. These sessions
    focused on reforms to dues collection procedures to increase income. Increased income will enable
    local unions to better serve their members at the plant level and make it possible for higher-level
    structures of the federation to respond to affiliates’ needs in a professional manner. Executive
    board members of the union said that they found the program informative, realistic, and very much
    needed given the current problems the labor movement faces.

DRL cited several challenges in implementing its programs in Pakistan: (1) ensuring that programs stay on
track and participants remain engaged as the country prepares for the national elections; (2) addressing
organizational and participant safety when implementing project activities at a time of increasing violence
throughout the country; and (3) adjusting project timelines in response to security-related instability
(exemplified by targeted killings, bomb blasts, and sectarian violence). Worsening security conditions in
Sindh Province, for example, led to the postponement of a DRL-sponsored networking summit for women
and prompted the Strengthening Worker and Trade Union Rights Project to shift program activities
away from the area.

PAS. As part of the U.S. Embassy’s strategic communication efforts, PAS’s English Language Access
Program provides English instruction to over 4,900 Pakistani students between the ages of 14 and 18.
To strengthen the impact and expand the reach of English-language programs, PAS is also focusing on
programs to support teachers of English in Pakistan. In January, PAS launched a new English Access
program with the National University of Modern Languages. In March, the Embassy is supporting one
English-language trainer to provide professional development services to English teachers in Islamabad,
Karachi, Lahore, Mansehra, and Multan.

Applications for the Community College Initiative Program doubled over the previous year. And, after
holding in-person interviews in January 2013, the Fulbright Commission completed the selection process
for the program’s 2013-2014 participants.



                                                                                                        41
A record number of applications were also received for the 2013-14 Global Undergraduate exchange
program. Interviews of shortlisted candidates were held in March 2013, and the 200 program
participants were to be selected next quarter.

In January, PAS sponsored a reunion for alumni of the Study of the U.S. Institute for Student Leaders.
One hundred alumni from all over Pakistan met in Islamabad for 3 days to reconnect, learn about the
Embassy’s alumni programs and resources, and brainstorm ideas for the Embassy’s alumni small grants
program. PAS also made selections for the summer 2013 programs.

In February, PAS sponsored a media summit with 80 alumni of the U.S.-Pakistan Professional Partnership
in Journalism. Trainers from the International Center for Journalists, the U.S. partner for this program,
led workshops and panel discussions on conflict-sensitive reporting, ethics, and social media. A core
group of 13 alumni then attended a 3-day workshop to become media trainers in their communities.
The application process for the next group of journalists to participate in this professional exchange
program opened in February, with applications due in late March.

USAID. USAID has ten programs and projects designed to improve governance, gender equity, and
transparency (Table 9). In addition, USAID transfers funds to PAS to support exchanges, and funds a
contract to enhance the Agency’s project monitoring and evaluation. USAID’s projects in this category
of assistance include a hotline for the public to register complaints, support to organizations that oppose
domestic violence and gender discrimination, and broad civil society support. In addition to its ongoing
programs, USAID was planning a program to monitor national elections in May.

   Table 9. USAID Good Governance, Gender Equity, and Transparency Programs as of
                            March 31, 2013 (Unaudited)

                                                   Start      End         Implementing           Funding
      Name                  Description
                                                   Date       Date          Partner                ($)

Anti-Fraud            Allows citizens to report
                                                                        Transparency
Hotline Project /     waste, fraud, and abuse of
                                                   1/09       9/15      International–           2,650,000
Anti-Corruption       U.S. Government funds
                                                                        Pakistan
Project               through a free hotline

                                                                        Rural Support
                                                                        Programmes
                      Conducts preaward
                                                                        Network, Lahore
Assessment and        assessments and develops
                                                                        University of
Strengthening         the capacity of Pakistani    10/10      10/15                             20,100,000
                                                                        Management
Program               organizations to manage
                                                                        Sciences, and
                      assistance funds
                                                                        Associates in
                                                                        Development




                                                                                                        42
                                                   Start   End       Implementing      Funding
      Name                 Description
                                                   Date    Date        Partner           ($)

                     Makes small grants to civil
                     society organizations for
                     advocacy projects that                        Trust for
Citizens’ Voice      support citizen                               Democratic
                                                   5/11    5/16                        14,250,000
Project              participation in energy,                      Education and
                     economic growth,                              Accountability
                     education, health, and
                     stabilization

                                                                   National
Election Support     Assesses the current
                                                   10/12   9/13    Democratic           1,400,000
Program              electoral environment
                                                                   Institute

                     Makes small grants to
Gender Equity        organizations opposing
                                                   8/10    8/15    Aurat Foundation    18,618,429
Program              domestic violence and
                     gender discrimination

Independent          Provides mission-wide
                                                                   Management
Monitoring and       support for monitoring,
                                                   6/11    6/16    Systems             22,000,000
Evaluation           evaluation, and the
                                                                   International
Contract             PakInfo system

                                                                   Provincial
Municipal Services   Improves delivery of basic
                                                                   governments’
Program, Sindh       municipal services
                                                   7/10    7/15    planning and       116,765,826
and Khyber           including water in
                                                                   development
Pakhtunkhwa          Jacobabad and Peshawar
                                                                   departments

                     Improves the
Political Parties    transparency and                              National
Development          accountability of Pakistani   7/11    7/13    Democratic           7,498,790
Project              political parties to their                    Institute
                     constituents

                     Expands USAID public
Public
                     communications to
Communications                                     11/11   11/14   Interflow           14,500,000
                     increase the transparency
Project
                     of USAID efforts




                                                                                              43
                                                       Start   End       Implementing          Funding
      Name                      Description
                                                       Date    Date        Partner               ($)

                          Makes small awards for
Small Grants and
                          community initiatives that                  National Rural
U.S. Ambassador's                                      8/10    8/15                           21,500,000
                          support U.S. foreign                        Support Programme
Fund Program
                          assistance objectives

                          Provides short- and long-                   Institute of
Training for
                          term training and study      9/11    5/13   International             6,561,354
Pakistan
                          tours                                       Education

                          Conducts exchange
Transfer to PAS –         programs and in-country
                                                                      DOS Bureau of
Exchanges /               English language
                                                       7/05    2015   Educational and         45,190,000
Strategic                 instruction that support
                                                                      Cultural Affairs
Communications            strategic communications
                          objectives


Source: USAID/Pakistan.

As of March 31, 2013, USAID reported that 403 grants have been awarded locally to NGOs since the
inception of its civil society support programs in 2010.

USAID also provided the following information on recent developments associated with its governance
and gender-equity assistance programs:

    The Citizens’ Voice Project has made a total of 123 grants valued at $7.82 million to Pakistani
    organizations across the country. Grants have addressed municipal services, legislative governance,
    water rights, education, energy, justice sector reforms, mobilizing female voters, and electoral
    education. Several grants during the quarter went to efforts to increase access and turnout for
    Pakistan’s general election in May.

    The Gender Equity Program has awarded 154 grants valued at more than $7.7 million to Pakistani
    organizations. Grants have supported an array of activities that address access to justice, women’s
    rights, prevention of gender-based violence, gender sensitization for youth and media, and economic
    empowerment. This quarter, the program organized various activities across the country through
    the Pakistan Gender Coalition for Pakistani Women and International Women’s Day. The program
    also published five studies on gender-based violence covering domestic violence, sexual harassment,
    social and legal response to rape, customary practices leading to gender-based violence, and internal
    trafficking of women and girls in Pakistan. The program continued to provide support for
    computerized national identity card registration and succeeded in registering approximately 20,000
    women. In addition, the program opened its seventh grants cycle for which it had received more



                                                                                                      44
    than 500 applications by the end of the quarter. The program plans to award 60 grants as part of
    this cycle.

    USAID’s Small Grants Program has made 43 awards for a total of $10.5 million to fund unique and
    innovative projects that support core development objectives in energy, economic growth,
    stabilization, health, education, good governance, gender equity, and public communication. An
    additional 78 awards totaling $7.2 million have been executed under the U.S. Ambassador’s Fund
    Program. Communities have praised these investments, noting that they have responded to some of
    the most urgent community priorities in domestic energy supply, water and sanitation, basic
    education, and agriculture.7

    The Municipal Services Program aims to strengthen the capacity of provincial governments in Sindh
    and Khyber Pakhtunkhwa and improve the management of key municipal services, especially in
    water and sanitation, through infrastructure upgrades and operational reforms to better address
    citizens’ basic needs. The program also seeks to strengthen grassroots citizen engagement,
    particularly of women, in the decision-making processes.

    -   The Municipal Services Program continued to make progress in Khyber Pakhtunkhwa during the
        quarter. Work continued on the implementation of quick-start activities. A total of
        34,665 meters of drains were cleared in targeted communities, 40 tube well pumps were
        completed, and the repair of two pump houses was under way. Tenders for the procurement
        of solid waste management equipment, machinery, and vehicles for use in two communities
        were awarded, and manufacturing was in progress at the end of the quarter. The program also
        continued to work on the master plan for Peshawar water, sanitation, and solid waste
        management during the quarter. In addition, a $1.3 million project implementation letter for
        capacity building support to the Urban Policy Unit, a think tank for the provincial government,
        was signed.

    -   The Municipal Services Program also made headway in Sindh Province. The program steering
        committee approved the municipal infrastructure that will be financed by USAID in
        Jacobabad. USAID’s architect and engineering contractor helped draft Government of Sindh
        planning documents required for the government to acquire additional funds to complete
        Jacobabad's outer drainage network, and was in the process of submitting detailed design and
        contract documents for construction work.

USAID continued to note challenges to program implementation in this area. According to USAID,
some conservative cultural attitudes and practices limit inclusiveness in public decision making, and
elements of the government have not always been willing to accept citizen input on policy matters. In

7
 The previous quarterly report reflected the number of recommended and approved grant applications under the
Small Grants and Ambassador's Fund Program as well as well as the number of signed grants. This quarter, the
report includes only signed grants.


                                                                                                         45
addition, local NGOs often lack the capacity and experience to perform effective policy advocacy.
Moreover, increasing militancy and security threats impede project implementation in remote rural
areas.

Humanitarian Assistance
The U.S. Government continues to provide humanitarian assistance in Pakistan as the country grapples
with both man-made and natural crises. Ongoing military operations and militant activity that began in
August 2008 have resulted in a sizable internal displacement in Khyber Pakhtunkhwa and FATA. Fighting
in the Tirah Valley of Khyber Agency since January 2013 has displaced 43,000 people. With the help of
UN agencies and the international community, Pakistan continues to recover from 2010, 2011, and 2012
floods, while also strengthening crisis planning and implementing risk-reduction methods to decrease the
devastation of future floods. The country also hosts some 1.66 million registered Afghan refugees, as
well as approximately 1 million unregistered Afghans residing in Pakistan as economic migrants. The
first wave of refugees arrived in 1979, leading to one of the largest and most protracted refugee
situations in the world.

DOS’s Bureau of Population, Refugees, and Migration (PRM) and USAID manage and coordinate
humanitarian assistance programs and activities in Pakistan on behalf of the U.S. Government.

PRM. PRM’s main goals in Pakistan are to meet humanitarian assistance needs, maintain safe spaces for
refugees, support durable solutions for Afghan refugees and migrants, and advance the sustainability of
PRM services.

The UN High Commissioner for Refugees (UNHCR) is PRM’s primary partner in assisting Afghan
refugees in Pakistan. UNHCR provides protection and essential services to refugees and oversees their
repatriation to Afghanistan. Since 2002, nearly 3.8 million Afghan refugees have returned to Afghanistan
through UNHCR’s voluntary repatriation centers in Pakistan. With PRM support, UNHCR and the
International Committee of the Red Cross also provide protection and assistance to people in Pakistan
affected by conflict and natural disaster.

In addition, PRM works with ten NGOs in Pakistan to provide Afghan refugees and host-community
members with primary education, maternal and child health care, and livelihood and skills development,
as well as to prevent and respond to gender-based violence (Table 10).




                                                                                                     46
  Table 10. PRM Humanitarian Assistance Programs as of March 31, 2013 (Unaudited)*

                                                                      Start   End    Funding
           Name                            Description
                                                                      Date    Date     ($)

Community-Based
Comprehensive Health           Provides services to refugees and
Services and Livelihoods       host community members in and
Opportunities for Afghan       around three refugee settlements in    9/12    8/13   919,852
Refugees and Host              the Pishin and Quetta Districts of
Communities in Balochistan     Balochistan
Refugee Camps

                               Provides primary education, skills
Education, Skills, and         development activities, and gender-
Protection for Afghan          based violence response services to
                                                                      9/12    9/13   367,602
Refugees and Host              Afghans and host community
Communities Program            members in semi-urban Quetta,
                               Balochistan

Improving Livelihood
                               Improves livelihood opportunities
Opportunities for Afghan and
                               for Afghan refugees and local youth
Local Communities through                                             9/12    8/13   235,411
                               through skills training and job
Imparting Skills in Demand
                               placement
Driven Trades

                               Supports seven government health
                               facilities in Balochistan’s Quetta
Integrated Afghan Refugee      District to provide quality maternal
                                                                      9/12    8/13   900,000
Assistance Program             and child health care and health
                               education to Afghan refugees and
                               members of the host community

                               Provide basic health services and
                               improve skills of 300 Afghan refugee
Mansehra Health, Vocational
                               men and women in Barari, Ichrian,
Training, and Market                                                  7/12    6/13   592,725
                               and Khaki refugee villages in
Development Program
                               Mansehra District of Khyber
                               Pakhtunkhwa




                                                                                          47
                                                                            Start   End      Funding
             Name                              Description
                                                                            Date    Date       ($)

                                   Provides primary and reproductive
                                   health care, and health and hygiene
Primary Healthcare,                information Prevents and responds
Repatriation and Gender-           to gender-based violence for Afghan
Based Violence Support for         refugees and host community              5/12    4/13     900,000
Afghan Refugees in Khyber          members in seven refugee villages
Pakhtunkhwa                        and one urban area of the Peshawar,
                                   Swabi, and Buner Districts of Khyber
                                   Pakhtunkhwa

Skills Training and Income
                                   Provides skills training and job
Generation for Urban Afghan
                                   placement services to Afghan
Refugees Residing in                                                        7/12    6/13     599,957
                                   refugee men and women in
Rawalpindi/Islamabad and
                                   Rawalpindi/Islamabad and Peshawar
Peshawar

                                   Builds the capacity of and increases
Strengthening of Community-
                                   access to community-based health
Based Healthcare Services for
                                   care for Afghan refugees by training
Afghan Refugees and Building
                                   health workers to reduce maternal        9/12    9/13     443,567
a Bridge to Better Quality
                                   mortality rates in the Swabi, Mardan,
Facility Services Through
                                   Nowshera, and Charsadda Districts
Capacity Building
                                   of Khyber Pakhtunkhwa

Strengthening Existing             Provides primary school education
Learning Structures of             to refugee children in urban Quetta
                                                                            2/12    7/13     301,315
Marginalized Afghan and            and helps assess their nutritional and
Minority Children in Quetta        basic health-care needs.

                                   Provides skill training and improved
Strengthening Livelihood           breeds of poultry and livestock to
System of Afghan and               Afghan refugees and their host           9/12    9/13     312, 548
Pakistani Communities              communities in the Lower Dir
                                   District of Khyber Pakhtunkhwa.

Source: PRM, U.S. Embassy Islamabad.

* The names of PRM’s implementing partners are withheld for security reasons.

PRM reported the following program developments during the quarter:

    PRM issued a 6-month cost extension for the Strengthening Existing Learning Structures of
    Marginalized Afghan and Minority Children Project in Quetta. The project provides educational and


                                                                                                  48
    nutritional services to 2,500 Afghan refugee children, has helped establish six parent-teacher
    associations, and sponsored school structure improvements.

    Under the Primary Healthcare, Repatriation and Gender-Based Violence Support for Afghan Refugees in
    Khyber Pakhtunkhwa Program, 80 Afghan refugee women from refugee camps and 20 host-
    community women were provided with poultry-rearing kits consisting of hens, a rooster, simple
    coops, starter feed, and training in chicken rearing. On average, the women, who were selected in
    close coordination with local jirgas (or assemblies of elders), were able to double their incomes by
    selling eggs. Some of the women reported that they have used their new income to pay school fees
    for their children.

USAID. USAID’s Office of Food for Peace (FFP) and Office of U.S. Foreign Disaster Assistance
(OFDA) provide humanitarian assistance in response to complex emergencies8 and natural disasters in
Pakistan. Both offices manage their programs from Washington, D.C., but have assigned technical
experts to Pakistan to coordinate activities with the USAID mission’s technical and provincial offices.
These experts provide links with other providers of humanitarian assistance in Pakistan and advise the
mission on emergency conditions and USAID’s options for responding to them.

From 2003 to March 2013, FFP provided $651 million to Pakistan to address food needs in complex
emergencies and disaster response. FFP has contributed to the food security of internally displaced
persons (IDPs) in Khyber Pakhtunkhwa and FATA since 2009 and to those throughout Pakistan who
were affected by the 2010, 2011, and 2012 floods. FFP provides in-kind and cash assistance.

FFP channels the bulk of its assistance through the UN World Food Programme (WFP). WFP provides
food rations to IDPs while they are away from home and for 6 months after their return. It provides
supplementary food for malnourished children and for pregnant and lactating mothers. WFP also
provides rehabilitation and reconstruction assistance in the form of food rations and cash payments for
workers on projects to rehabilitate community infrastructure.

As of March 31, 2013, USAID reported the following examples of program developments and
achievements in FFP humanitarian assistance programs:

    During the quarter, FFP provided $30 million in additional funding to WFP for its new Protracted
    Relief and Recovery Operation. These funds will cover the cost of program operations, provide
    approximately 23,000 metric tons of commodities to meet the basic food requirements of people
    displaced by conflict and security operations, contribute to community infrastructure repair, and
    address malnutrition of young children and pregnant and lactating women. The new effort, which
    combines support for conflict-displaced people with a residual caseload of flood survivors, reached


8
  Complex emergencies are humanitarian crises in areas where there has been a breakdown of authority as a
result of internal or external conflict.


                                                                                                      49
    between 940,000 and 1.6 million IDPs with a monthly family food ration during the quarter. The
    effort is expected to continue through 2015.

    In response to an appeal from WFP/Pakistan, the Government of Pakistan authorized the release of
    75,000 metric tons of wheat from its reserves to WFP for relief assistance to the IDPs in Khyber
    Pakhtunkhwa and FATA. These wheat reserves are being released, processed, and distributed with
    financial assistance from Australia, Belgium, and the United Kingdom’s Department for International
    Development, as well as with multilateral funds from WFP. This donation covers most of the cereal
    needs for the relief program for the rest of 2013, thereby reducing the need for additional FFP
    contributions. USAID/Pakistan expressed its intent to contribute $8 million to the operational costs
    of this wheat donation, covering about 35 percent of the total funds requirement.

USAID’s OFDA responds to humanitarian needs in Pakistan that result from natural and man-made
disasters.

Heavy monsoon rains that began in late August 2012 triggered flooding that affected 4.8 million people,
resulted in 430 deaths, and damaged or destroyed more than 402,000 houses, according to Pakistan’s
National Disaster Management Authority. Although the Government of Pakistan did not formally appeal
for humanitarian assistance, it requested that humanitarian organizations distribute emergency relief
items in coordination with local authorities. In response, the U.S. Government issued a disaster
declaration on October 5, 2012, to address the flooding in Sindh, Balochistan, and Punjab Provinces.
During the reporting period, OFDA continued providing support for shelter, water, sanitation and
hygiene activities, as well as for critical nonfood items, such as winterization kits.

Meanwhile, OFDA continued its humanitarian response strategy of supporting conflict-affected
populations—particularly newly displaced people in Khyber Pakhtunkhwa and FATA—and helping
communities affected by floods over the past 3 years recover from the devastation. As a result of
fighting starting in early 2013, families have been ordered to leave FATA’s Tirah Valley, and the FATA
Disaster Management Authority reports that 43,000 individuals have been displaced. For newly
displaced individuals, OFDA has focused on health and water, sanitation, and hygiene assistance; for IDPs
returning home, it prioritizes economic recovery and agricultural support. OFDA also works with
disaster-prone communities to reduce their vulnerability through community-based initiatives to manage
disaster risk.

During the quarter, OFDA provided nearly $5.7 million in additional funding to the UN and NGOs to
meet priority humanitarian needs and aid the economic recovery of people displaced by conflict or
flooding. Total OFDA assistance to Pakistan amounted to nearly $29.7 million in FY 2012, and OFDA
provided approximately $9.1 million through the second quarter of FY 2013. This assistance builds on
the nearly $432 million in emergency relief funding provided by OFDA over the previous 10 years.




                                                                                                      50
Twelve OFDA programs were active in Pakistan at the end of the reporting period (Table 11). One
OFDA-funded program that provided support to an NGO in Pakistan concluded during the reporting
period.

    Table 11. USAID OFDA Humanitarian Assistance Programs as of March 31, 2013
                                 (Unaudited)

                                                                      Start   End     Funding*
           Name                            Description
                                                                      Date    Date      ($)

                               Improves the capacity and strategies
                               of poor and vulnerable populations
                               and key stakeholders in Sindh,
Community-Based Disaster
                               Punjab, and Khyber Pakhtunkhwa         7/11    6/13    1,342,678
Risk Management Program
                               Provinces to manage disaster risk
                               through sustainable preparedness
                               and mitigation measures

                               Targets improvements in the
                               capacity and strategies of poor and
Community-Based Disaster       vulnerable populations and key
Risk Management Program in     stakeholders in Sindh Province to      9/12    9/13    1,399,962
Sindh                          manage disaster risk through
                               sustainable preparedness and
                               mitigation measures

                               Supports the World Health
                               Organization’s Disease Early
                               Warning and Response System,
Disease Early Warning and      which gathers and analyzes national
                                                                      7/12    12/13   4,200,000
Response System Support        health data to enable detection and
                               response to epidemic-prone diseases
                               and reduce resulting disease
                               transmission and death

                               Provides economic recovery
Facilitating Economic          assistance to vulnerable IDPs who
Recovery for Off-Camp          have been displaced from FATA          7/12    4/13    2,400,000
Vulnerable IDP Families        since 2012 and are residing in host
                               communities in Khyber Pakhtunkhwa

Logistics Support for          Provides logistics support to flood-
                                                                      11/12   4/13    100,000
Response to 2012 Floods        affected regions




                                                                                              51
                                                                           Start   End     Funding*
            Name                             Description
                                                                           Date    Date      ($)

                                 Provides support to the UN’s
Office for the Coordination of
                                 OCHA for humanitarian assistance
Humanitarian Affairs (OCHA)                                                1/12    12/13   500,000
                                 coordination and information
Support
                                 management activities

                                 Rehabilitates damaged shelters and
                                 provides training on building
                                 weather-resistant structures for
                                 people affected by flooding and
Providing Shelter
                                 complex emergencies; helps OCHA
Rehabilitation and Cluster                                                 5/12    7/14    5,700,000
                                 develop common strategies and
Support
                                 promote information sharing and
                                 coordination among international
                                 relief agencies responsible for shelter
                                 activities

                                 In FATA and Khyber Pakhtunkhwa,
                                 provides speedy, targeted grants to
                                 partners with the capacity, local
Responding to Pakistan’s
                                 knowledge, and access required to         8/09    9/13    6,682,000
Internally Displaced (RAPID)
                                 meet the needs of flood victims and
                                 IDPs, host communities, and
                                 returnees

                                 Supports the provision of transitional
Shelter and Settlement
                                 shelter to members of flood-affected      12/12   6/13    1,199,360
Support in Sindh
                                 households in Sindh Province

                                 Provides conflict-displaced
                                 individuals and members of host
                                 communities in FATA with access to
Supporting Conflict-Displaced
                                 safe drinking water as well as with
People in FATA and Khyber                                                  7/12    5/13    600,000
                                 exposure to improved sanitation and
Pakhtunkhwa
                                 environmental health and hygiene
                                 practices to reduce the risk of
                                 waterborne disease

                                 Supports UNICEF’s provision of
UNICEF Support                   water, sanitation, and hygiene
                                                                           12/12   12/13   2,500,000
                                 assistance in response to floods and
                                 complex emergencies




                                                                                                   52
                                                                             Start       End    Funding*
             Name                               Description
                                                                             Date        Date     ($)

                                    Provides water, sanitation, and
Water, Sanitation, and
                                    hygiene assistance in Sindh
Hygiene Support for Flood-                                                   12/12       6/13   1,000,000
                                    Province’s flood-affected districts of
Affected Households
                                    Jacobabad, Kashmor, and Shikarpur

Source: OFDA.
Note: This table omits the names of OFDA’s implementing partners for security reasons.

*   Figures exclude funding from FY 2011 and prior years.

USAID provided the following examples of program developments and achievements in OFDA
humanitarian assistance programs during the reporting period:

    OFDA continued to provide support to a rapid-response fund known as RAPID to address the
    needs of IDPs, their host communities, and returnees in Pakistan. Since establishing the fund in
    2009, OFDA has awarded more than $30 million to support more than 100 activities that benefit an
    estimated 2.6 million conflict- and flood-affected people. In FY 2013, the RAPID fund has granted
    about 20 subawards to local NGOs countrywide to assist affected populations by providing
    emergency shelter and sanitation facilities, as well as by addressing basic health needs. Subaward
    recipients receive up to $350,000 per award for assistance activities.

    In early 2013, OFDA provided additional funding to OCHA to improve humanitarian coordination
    and information management in Pakistan. This support will help ensure appropriate and timely
    delivery of humanitarian assistance to populations affected by conflict and floods.

    OFDA continues to work closely with the Shelter and Water, Sanitation, and Hygiene cluster leads
    (the International Organization for Migration and UNICEF, respectively) to coordinate, develop, and
    implement activities that aim to respond to two concurrent disasters—the 2012 floods and the
    complex emergency.

    OFDA continues to support conflict-affected populations in FATA and Khyber Pakhtunkhwa,
    focusing on families living outside of camps and their host communities through programs that aim
    to restore livelihoods and ensure access to potable water and sanitation facilities. In addition,
    Islamabad-based OFDA staff members continue to investigate reports of increased displacement in
    FATA’s Tirah Valley.

    An ongoing OFDA-supported shelter and settlements project in Sindh Province employs design
    methods to help ensure shelters are more resistant to disaster—by, for example, constructing
    houses on locally procured raised plinths anchored 2 feet underground. In February, an OFDA field



                                                                                                        53
      officer held technical meetings with the grantee’s engineers to review the program’s methods for
      ensuring the quality of designs and materials, as well as receive local input into the intervention.


Assistance to Pakistani Institutions

To ensure greater responsiveness and increase the sustainability of civilian programs, the U.S.
Government plans to continue to implement programs through Pakistani institutions, including national
and provincial governments and NGOs, when feasible.9 The purpose of this focus is to:

      Align programs with locally identified priorities.

      Build Pakistanis’ sense of ownership of programs.

      Build Pakistani institutional and leadership capacity for better fiscal management.

      Promote decentralization to engage provincial and local partners and beneficiaries more actively.

      Deliver on-budget assistance10 to promote transparency, harmonization, and better budget planning
      by the Government of Pakistan.

      Reduce costs.

USAID awarded more than $2.211 billion to Pakistani institutions between FY 2010 and FY 2012. As of
March 31, 2013, USAID had made approximately $45.6 million in awards to Pakistani institutions during
FY 2013 (Table 12). Awards made by USAID fall into one of the following three categories: direct
funding for government projects, awards to nonprofit Pakistani organizations, and awards to Pakistani
for-profit entities.

         Table 12. USAID Assistance to Pakistani Institutions in FY 2013* (Unaudited)

                                                                                   Number of         Value ($) of
    Implementing Partner, Project
                                                                                    Awards          Subobligations

    Direct Funding for Government Projects                                                2             3,273,997




9
 The Enhanced Partnership with Pakistan Act of 2009 encourages appropriate use of Pakistani firms and NGOs to
implement the programs authorized under Title I of the act (Section 101(c)(3)) codified at Title 22 U.S.C. 8411(c)(3).
10
   Delivering U.S. assistance through Pakistan’s own budgetary, spending, and accounting systems as much as possible
is expected to help Pakistan’s Government meet the fiscal targets required by the International Monetary Fund and
raise Pakistanis’ awareness of where U.S. funds are going and how they harmonize with resources from the
Government of Pakistan and other donors. On-budget assistance should also help reduce disruptions in
implementation by enabling federal and provincial governments to improve budgeting and cash-flow management.


                                                                                                                   54
                                                                              Number of    Value ($) of
 Implementing Partner, Project
                                                                               Awards     Subobligations

 Government of Khyber Pakhtunkhwa’s Local Government and Rural
                                                                                   1         1,839,050
 Development Department, Municipal Services Program

 Health Services Academy, Developing & Strengthening Capacity in Public
                                                                                   1        1,434,947
 Health & Research

 Awards to Pakistani Nonprofit Organizations                                       5       28,973,704

 Agribusiness Support Fund, Agribusiness Project                                   1        17,000,000

 Trust for Democratic Education and Accountability, Citizen’s Voice Project        1         4,250,000

 Dairy and Rural Development Foundation, Dairy Project                             1         4,273,704

 Lahore University of Management Sciences, Assessment and Strengthening                      2,000,000
                                                                                   1
 Program

 Rural Support Programmes Network, Assessment and Strengthening                              1,450,000
                                                                                   1
 Program

 Awards to Pakistani For-Profit Entities                                           7       13,320,818

 Interflow Communications, Public Communications Project                           1         8,989,616

 National Development Consultants (Pvt.) Ltd., Assessment and evaluation
                                                                                   1         4,035,743
 services for Peshawar Master Plan, Municipal Services Program

 Associates in Development (Pvt.) Ltd., Monitoring and evaluation services
                                                                                   1           650,000
 for projects in FATA and Khyber Pakhtunkhwa

 AGES Consultants, Monitoring and evaluation services                              1           500,000

 BAFARe/Pakistan, Monitoring and evaluation services                               1           100,000

 KPMG Taseer Hadi & Co., Accelerated capacity building - PaRRSA                    1          (946,502)

 Keychain Films, Relief to Flood Affected Communities of Punjab and Sindh          1            (8,039)

 Total                                                                            14       45,568,519

Source: USAID/Pakistan.
* Awards made to Pakistani institutions from October 1 to March 31, 2013.


Prior to disbursing funds, USAID’s Office of Financial Management performs preaward assessments of all
prospective partner organizations. The assessments examine organizational and management structure,
accounting and financial management systems, internal controls, technical capabilities, and quality
assurance capabilities, as well as organizations’ policies, procedures, and practices for effective and
                                                                                                        55
efficient management of USAID/Pakistan resources.      Through the end of March 2013, USAID had
completed 202 preaward assessments.

USAID also works to strengthen the capacity of Pakistani institutions to manage and oversee project
activities. USAID has sponsored 104 activities to build institutional capacity under the Assessment and
Strengthening Program and completed four research studies on streamlining project management units.
Courses offered under the program are designed for government, civil society, and local private sector
participants at all levels. The program offers participating organizations training courses on financial
management, procurement management, human resources and administrative management, and
monitoring and evaluation. The USAID mission is also working with the Office of the Auditor General
(Pakistan’s Supreme Audit Institution) to strengthen its capacity to provide audits required under
government-to-government agreements.




                                                                                                     56
Staffing
The U.S. Mission in Pakistan—including USAID and Embassy components—increased its staff size in
Islamabad, Lahore, and Karachi but experienced a decrease in staffing at the regional office in Peshawar.

As shown in Table 13, USAID reported a total of 258 staff (57 U.S. direct hires and 201 others) as of
March 31, 2013. USAID mission management did not fill all vacancies during the past few quarters
because of limited availability of office facilities for these personnel. With the mission’s move to a new
building last September, USAID has expanded recruitment to fulfill its responsibilities without relying on
temporary-duty employees or on support from Washington, D.C. According to the Pakistan Assistance
Strategy Report, USAID, as the lead and largest manager of assistance funds among U.S. Government
agencies, will need to increase its project management, financial management, and procurement staff
significantly. With an FY 2013 target of 310 staff, USAID/Pakistan remained understaffed by
52 positions.

                      Table 13. USAID Staffing in Pakistan as of March 31, 2013

                                                                                         Change From
       Category            Islamabad   Peshawar*    Lahore      Karachi       Total
                                                                                         Dec 31, 2012

  U.S. direct hires            50          4           3           0            57              +1

  U.S. personal services
                               17          3           1           2            23               –
  contractors

  Third-country
                               10          1           0           0            11               -1
  nationals

  Foreign Service
  Nationals                   121         20           12          11          164              +8
  (Pakistani staff)

  Eligible family
                                3          0           0           0              3              –
  members

  Long-term
                       †        0          0           0           0              0              –
  temporary-duty staff

 Total Staff                  201         28           16          13          258              +8

 Staff Target 2013                                                             310

 Staff Shortfall                                                                52

Source: USAID/Pakistan.


                                                                                                       57
*   Includes staff members assigned to Peshawar but currently residing in Islamabad.

†   USAID/Pakistan counts individuals who have been in Pakistan for a year or more occupying vacant positions
    toward its total positions.

PAS personnel in Pakistan work in offices in Islamabad, Karachi, Lahore, and Peshawar. In total, PAS had
28 U.S. direct hires and 56 Pakistani staff members as of March 31, 2013. As of that date, INL-Pakistan
had 9 U.S. direct hires, 1 U.S. personal services contractor, 5 third-party contractors, and 65 Pakistani
staff. USIP has one employee based in Pakistan.




                                                                                                          58
Risks and Mitigation Strategies
U.S. Government agencies and oversight entities have identified risks that could jeopardize the
U.S. Government’s assistance program in Pakistan and developed corresponding mitigation strategies.
The following challenges facing the civilian assistance program remained pertinent during this quarter:

   Political risks. Pakistan continued to experience political, economic, and security-related turmoil.
   Such instability limits progress by the Government of Pakistan and the U.S. Government in
   delivering an effective assistance program. An interim government was in place in Pakistan during
   the reporting period, limiting major government decisions and delaying the start of new programs
   and projects. May 2013 parliamentary elections may produce changes in government priorities and
   affect the direction of assistance programs.

   Operating restrictions. Implementation and monitoring of U.S. Government-supported projects have
   been hindered by strict Government of Pakistan rules regarding travel outside of Islamabad and
   provincial capitals. Visits to some areas require from several days’ to 3 weeks’ prior notification and
   sometimes the approval of the Ministry of Foreign Affairs; these restrictions delay and often lead to
   the cancellation of site visits. Difficulty obtaining visas and visa renewals continues to hamper
   recruitment and lower staff morale. Further, local authorities continue to harass U.S. Government
   and Embassy personnel, especially local staff members.

   Resistance to reform. Entrenched interests sometimes resist policy reforms needed to transform the
   economy. The effective governance, accountability, and financial solvency of energy sector
   institutions are critical to economic reform. Political interference continues to undermine the
   decision-making ability of power company managers and regulatory officials. According to USAID, if
   Pakistan does not implement fundamental reforms, assistance from the United States and other
   donors will have limited long-term benefits. In the energy sector, the Chairman of WAPDA has
   been appointed as the coordinator for all power sector enterprises including generation and
   transmission companies, for better “coordination and administration (control).” This is counter to
   the basic requirements of the energy sector reform process initiated nearly 20 years ago and may
   have an adverse effect on USAID efforts including those to prepare a model distribution company
   for privatization.

   Vulnerability to natural disasters. Flood damage has delayed implementation of projects in affected
   areas. Because Pakistan is prone to natural disasters such as flooding, this is a regular risk. To help
   Pakistan address this risk, USAID supports programs in water storage and management, including
   the surface water management program for Balochistan and Gomal Zam Dam that contributes to
   flood mitigation efforts. OFDA also has ongoing efforts to strengthen Pakistan’s ability to respond
   to disasters and reduce related risks.


                                                                                                       59
Leadership turnover. High levels of staff and leadership turnover within the Government of Pakistan
and the U.S. Government affect planning, coordination, and implementation of programs. Senior
managers at power companies and senior government officials at the Ministry of Water and Power
are usually political appointees who spend less than 2 years in their positions. A recent analysis of
transfers and postings at the Ministry of Water and Power based on data from the last 5 years
revealed that the average tenure of a Minister was approximately 18 months, and that of a Federal
Secretary 11 months. The devolution of federal programs for health, education, and agriculture to
provinces with insufficient guidance on the expected roles and responsibilities of the federal,
provincial, and district governments has also complicated project implementation. High U.S.
Government staff turnover also limits the efficiency and effectiveness of assistance programs.

Adverse environmental impact. Some development projects have the potential to degrade the natural
or physical environment. USAID/Pakistan conducts environmental assessments before disbursing
funds for projects and takes steps to mitigate any risks identified before continuing with project
activities.

Limited institutional capacity. In FATA, Khyber Pakhtunkhwa, Sindh, and Balochistan, where there is
limited institutional capacity and insufficient staff with experience in financial and procurement
management, extra effort is made to mitigate the risk of resources being lost through inefficiency,
theft, or general lack of capacity to handle large amounts of funding. Several major U.S.
Government programs are designed to increase the institutional capacity of Pakistani institutions in
these areas. USAID/Pakistan’s Population Health and Nutrition Office, for example, implements a
number of programs, including support for the Health Services Academy, to strengthen health-care
institutions and human capital.

Inadequate financial management in Government of Pakistan institutions. The U.S. Government and the
Government of Pakistan have collaborated to introduce special accounts for budget support
provided by the United States to address financial challenges and maintain accountability. However,
financial management, accountability, and reporting challenges continue. USAID is providing
targeted financial management assistance to key Government of Pakistan institutions and
collaborates with other donors through the Working Group on Public Financial Management.

Security risks. Security concerns continue to reduce the ability of U.S. Government personnel to
conduct direct monitoring and evaluation in conflict-affected areas, particularly Peshawar, FATA,
Khyber Pakhtunkhwa, and Balochistan, and to engage Pakistani officials in project design. In March
2012, a Balochistan Agriculture Project vehicle was attacked; two people associated with the project
were killed, and a third was injured. In August, eight local WAPDA staff members working on the
Gomal Zam Dam Project were kidnapped, and one was reportedly killed. In December, nine polio-
eradication workers were killed because they were involved in vaccination drives. Project
implementation continues in the face of these security threats.




                                                                                                  60
As described above, security conditions present an ongoing challenge for civilians providing assistance in
certain vulnerable areas, and they challenge the U.S. Government’s ability to monitor and evaluate
programs. USAID is meeting the challenge through an independent monitoring and evaluation contract.
Services provided under the contract include routine monitoring, training on entering project
performance data, mapping using a geographic information system, and conducting evaluations and
assessments. The integrity of the data provided by USAID/Pakistan’s implementing partners, which
serves as the basis for annual performance reporting, is also verified under the contract. Additionally,
USAID’s Office of Afghanistan and Pakistan Affairs, in conjunction with USAID/Pakistan, has developed a
database, PakInfo, that includes indicators USAID uses to measure the progress of its programs, as well
as the indicators each implementing partner uses to track progress.

This performance reporting takes place within a larger framework designed to ensure that broader U.S.
strategic and operational objectives are met. USAID mission achievement is measured against
performance indicators and targets identified in the mission’s results framework and performance
management plan. The results framework defines mission objectives and desired intermediate results in
each of the focus sectors for assistance to Pakistan, and the performance management plan explains how
the mission will collect data on and measure progress in these areas.

To reduce fiduciary risks, USAID has hired accounting firms to conduct preaward assessments to ensure
that potential recipients of USAID assistance meet U.S. transparency and accountability standards.
These assessments identify and document potential recipients’ weaknesses and areas for improvement.
USAID then works with partners to build capacity and mitigate risks. In addition, USAID increasingly
uses fixed-amount reimbursable agreements for assistance programs implemented through Pakistani
institutions. These agreements require milestones to be achieved and independently verified before
payments are processed.

USAID has also established an Assessment and Strengthening Program to build the institutional capacity
of local Pakistani organizations. The program helps identify, address, and validate responses to
institutional capacity weaknesses in public sector, civil society, and for-profit institutions. It enables
USAID/Pakistan to work with a wide range of local implementing partners and host-government
institutions in an effective, transparent, efficient, and responsive manner without having to resort to
consultancies or support arrangements provided on a project-by-project basis.

The capacity-building process focuses on specific organizational needs identified through preaward
assessments and on national development objectives and requirements. Efforts include developing
dedicated project management units in the government, improving policies and procedures, reviewing
and strengthening organizational structures, ensuring adequate internal controls, improving financial
management and procurement processes, increasing employee skills through on-the-job technical
assistance, and providing relevant tools and products for carrying out government functions.

In addition to these program strategies, the OIGs for USAID and DOS have taken the following steps to
ensure that U.S. Government funds are protected against waste and theft:


                                                                                                       61
     Maintaining an in-country oversight presence. As of March 31, 2013, USAID OIG had 14 permanent
     staff in Islamabad (9 U.S. direct hires and 5 Foreign Service National employees), supplemented by a
     staff member on temporary duty. To support its Pakistan oversight portfolio, DOS OIG had two
     U.S. direct hires and one U.S. personal services contractor on staff in Islamabad at the end of the
     reporting period.

     Expanding the use of independent Pakistani public accounting firms to conduct financial audits of funds
     provided to Pakistani NGOs. As of December 31, 2012, USAID OIG had a roster of 28 eligible audit
     firms in Pakistan to call on. Since the passage of the Enhanced Partnership with Pakistan Act on
     October 15, 2009, USAID OIG has nearly doubled the size of this roster.

     Providing training to NGOs, government organizations, and USAID contracting and agreement officers’
     representatives and financial analysts. During FY 2012, USAID OIG provided training on the standards
     and requirements for financial audits of U.S. Government funds to 73 participants from NGOs,
     13 government officials, and 19 USAID staff members.

     Helping the Office of the Auditor General conduct financial audits. USAID OIG helps the office conduct
     financial audits of funds provided by USAID/Pakistan to Pakistani Government entities by providing
     support during the audit process. USAID OIG also reviews the final reports to ensure that the
     audits were performed in accordance with its Guidelines for Financial Audits Contracted by Foreign
     Recipients. The Office of the Auditor General completed two financial audits of USAID-funded
     activities this quarter.

     Working with Pakistan’s National Accountability Bureau.11 USAID OIG established a working
     relationship with the National Accountability Bureau in early 2010 and continues to coordinate
     efforts and collaborate on investigations.

     Collaborating with USAID/Pakistan to establish and maintain the Anti-Fraud Hotline in Pakistan. As the
     only one of its kind in Pakistan, the hotline provides a unique and useful tool for Pakistani citizens to
     provide feedback to USAID, its implementing partners, and the Government of Pakistan. This
     quarter, the hotline received 378 complaints through various channels—e-mail, Internet, facsimile,
     mail, and in person. These complaints relate to projects funded by USAID, the Pakistani
     Government, and international organizations.

     Providing fraud awareness briefings and expanding investigative coverage. USAID OIG investigators also
     conduct fraud awareness briefings to alert participants—employees, contractors, and grantees—to
     fraudulent practices and schemes and to provide guidance on how to report fraud. During the
     quarter, OIG special agents in Pakistan conducted nine fraud awareness briefings for 329 attendees.

11
   The National Accountability Bureau is the primary law enforcement agency in Pakistan responsible for
investigating white-collar crime and public corruption. It is Pakistan’s only law enforcement agency authorized to
conduct investigations in FATA.


                                                                                                               62
Coordinating audits and investigations with other U.S. agencies. USAID OIG coordinates audit and
investigative work with other OIGs, the Government Accountability Office (GAO), and law
enforcement agencies including the Federal Bureau of Investigation’s International Corruption Unit,
the National Procurement Task Force, the Financial Crimes Enforcement Network, and the U.S.
Embassy’s Legal Attaché Office to eliminate duplication and maximize efficient use of government
resources.




                                                                                                63
Oversight Status
Because U.S. civilian assistance programs and activities in Pakistan are implemented by several agencies,
more than one oversight organization has the authority to conduct related audits, reviews, inspections,
and investigations. The OIGs for DOS and USAID, along with GAO, reported that they had conducted
Pakistan-related work during the quarter; the OIGs for DOC, DOD, the Department of Homeland
Security, the Department of Justice, and USDA reported that they did not undertake any oversight
activities specific to Pakistan during the reporting period and had no planned audit work pertaining to
Pakistan.


Department of State Office of Inspector General

Work Completed

DOS OIG did not complete any audits or evaluations related to Pakistan from January 1 to March 31,
2013.

Work Under Way

As of March 31, 2013, DOS OIG had one audit and one evaluation under way:

    Audit of the Administration and Oversight of the Pakistan National Police Training and
    Mentoring Program. This audit will evaluate whether INL is efficiently and effectively managing
    the Pakistan Law Enforcement Reform Program and whether INL is achieving intended and
    sustainable results through each component of the program.

    Evaluation of the Emergency Action Plan for Embassy Islamabad. DOS OIG will evaluate
    Embassy Islamabad’s formulation of a comprehensive Emergency Action Plan, the completeness of
    associated documentation, and the general knowledge and preparedness of all mission personnel.

Work Planned

In addition to those under way, DOS OIG plans to conduct two audits of Pakistan-related programs and
activities during the remainder of FY 2013:

    Audit of the Administration and Oversight of the Pakistan Counterinsurgency
    Capability Fund. This audit will determine whether DOS’s administration and oversight of the
    Pakistan Counterinsurgency Capability Fund are effective.



                                                                                                      64
    Audit of the Bureau of International Narcotics and Law Enforcement Affairs’ Judicial
    Reform Programs in Pakistan. This audit will determine whether INL’s administration and
    oversight of its judicial reform programs in Pakistan are effective and whether the programs are
    achieving stated program objectives.

Investigative Work

During the reporting period, DOS OIG closed one case relating to Pakistan. One other case was
ongoing as of March 31, 2013. In addition, DOS OIG referred several entities to DOS for possible
debarment pursuant to an investigation in Pakistan. Action on those referrals was pending at the end of
the reporting period.


USAID Office of Inspector General

USAID OIG has strengthened its focus on Pakistan since USAID reopened its Pakistan mission in 2002.
In recent years, OIG has covered a wide array of USAID programs in Pakistan, for relief and
stabilization, reconstruction, sustainable development, education, and health care. USAID OIG’s
oversight activities include performance audits and reviews, financial audits, and investigations.

Since the start of FY 2010, USAID OIG has issued 60 Pakistan-based financial audits and agreed-upon
procedures reports and 22 performance audits and reviews of Pakistan-related assistance efforts. These
reports have made 148 recommendations for improvements to USAID programs and activities.
Performance audits conducted since FY 2010 have noted the need for improvements in a range of
management and performance areas. More than half of OIG performance audits have identified contract
or project management deficiencies, approximately four in ten have found internal control weaknesses,
and about one in three have noted noncompliance with relevant procedures or regulations. Financial
audits overseen by OIG since FY 2010 have covered $635.2 million in expenditures. OIG audits during
this period have identified approximately $25.3 million in sustained questioned costs and funds to be put
to better use.

Work Completed

From January 1 to March 31, 2013, USAID OIG completed two performance audits and two financial
audits USAID programs in Pakistan. In addition, USAID OIG completed a quality control review of a
financial audit.

    Audit of USAID/Pakistan’s Design for Sustainability in the Jamshoro Thermal Power
    Station Repair and Rehabilitation Project (Report No. G-391-13-001-P, January 17,
    2013). USAID/Pakistan is assisting the Government of Pakistan in improving the energy sector with
    the Jamshoro Thermal Power Station Repair and Rehabilitation Project and two other thermal
    energy projects in Guddu and Muzaffargarh. Jamshoro is owned by the Government of Pakistan and

                                                                                                      65
is one of the major power stations connected to the national electricity grid. In 2010,
USAID/Pakistan entered into an agreement with the Government of Pakistan to provide
$18.4 million to repair and rehabilitate the Jamshoro Thermal Power Station by purchasing new
equipment. By 2012, USAID/Pakistan amended the agreement to increase funding to $19.3 million.
USAID/Pakistan hired a U.S.‐based engineering contractor, Advanced Engineering Associates
International Inc., to implement the project. In addition, the mission tasked a local organization,
Associates in Development, to help improve policies and procedures and to train power station
employees on the new procedures.

The power station managers have shown their commitment to completing the project and achieving
its goals. As of November 2012, the power station had procured USAID‐funded equipment,
including the drain valves, and $2 million worth of equipment with its own resources.
Notwithstanding USAID’s efforts, without Government of Pakistan’s policy reforms, this project will
not achieve sustainability. Factors beyond the mission’s control, such as a lack of Government of
Pakistan policy reforms relating to energy subsidies and the purchase of a less expensive energy
supply, will affect the financial sustainability of the power station after the project is completed.

The Government of Pakistan subsidizes the power sector, of which Jamshoro and other thermal
plants are part. From 2008 to 2012, the power station’s total revenue was $1.4 million, while it cost
approximately $1.5 million to operate the plant. The government subsidized the shortfall. The
power station now uses more expensive furnace oil instead of natural gas to generate power, and
the cost of energy production for the plant has tripled since the switch. Furnace oil is also harder
on the equipment. A power station official noted that with natural gas, one piece of very expensive
equipment required replacement every 7 years. However, after using furnace oil continuously for
the last 2 years, the station had to replace this piece of equipment after about 18 months. The
overall wear and tear on equipment has caused the plant to generate less than its original
850-megawatt capacity, further increasing costs and diminishing investment in plant maintenance.

In addition, according to the monitoring plan, the power plant was to increase output by
50 megawatts by September 2012 and by 150 megawatts by June 2013. However, it did not achieve
its interim target because of several factors, including delays in shipping and a fire that damaged the
plant’s cooling tower. Moreover, many substantial activities remained. No draft manuals on
accounting and financial management, internal audit, human resources, and information technology
had been provided to the power station for review and comment, and no training had been
conducted on updated policies and procedures.

The report made three recommendations to address these issues.

Audit of USAID/Pakistan’s Gender Equity Program Implemented by the Aurat
Foundation (Report No. G-391-13-002-P, March 28, 2013). In August 2010, USAID/Pakistan
and the Aurat Foundation, a local nongovernmental organization, signed a $40 million cooperative
agreement to implement the Gender Equity Program. The goal of the program is to facilitate
behavioral change—in particular, to encourage citizens’ participation in social change and
                                                                                                    66
governance at all levels; enable women to acquire control over their lives through greater access to
information, resources, and institutions; and improve attitudes and behavior toward women. The
program is to award approximately 400 grants of varying amounts over a 5-year period to
government entities and NGOs to achieve its goal. As of January 2013, USAID/Pakistan had
obligated approximately $19 million and spent $11 million for the program’s activities.

OIG found that USAID/Pakistan’s Gender Equity Program has made progress on all three objectives
reviewed: expanding women’s access to justice, combating gender-based violence, and strengthening
organizations that advocate women’s rights. As of November 2012, the implementer had awarded
approximately 150 grants to organizations throughout the country. Of these, 110 (73 percent)
were awarded under the objective of combating gender-based violence. In addition, the program
funded research with the National Commission for the Status of Women to strengthen the
Government of Pakistan’s policy on gender equity. The program also awarded grants to support
gender studies in public universities across the country, creating a network for sharing knowledge,
research, and experiences. Further, program grants supported 152 young female lawyers gaining
practical experience defending women’s legal rights.

However, OIG found several weaknesses that still need to be addressed. Program grants designed
to combat gender-based violence were too short to have a lasting effect on the intended
beneficiaries, and their budgets were too small. Because grants were small and of short duration,
the work suffered. For instance, a grantee celebrating Pakistani Women’s Day in Sindh Province
was able to reach only 600 people out of tens of thousands of potential beneficiaries.

Another issue concerned site visits. Mission officials made only 11 site visits, a majority of which
occurred after OIG began auditing this program. Of the 11 site visits reported by the mission, only
3 were documented. Given that the site visits involved only 9 of the more than 150 subgrants made
over the past 2½ years, the site visits covered less than 10 percent of the subgrantees.
Consequently, the mission has not verified progress but has relied on the results reported by the
prime implementer.

The report made two recommendations to address these issues.

Financial Audit of USAID Funds Managed by the Health Services Academy Under
Grant Agreement No. 391-IL-08-01111-00, for the Period July 1, 2009, to June 30, 2010
(Report No. G-391-13-016-R, February 22, 2013). This audit covered $383,050 in revenues
and costs under the Health Services Academy grant agreement. Auditors questioned $4,596 in
costs associated with noncompetitive procurements and also identified several weaknesses in
internal control and instances of noncompliance. OIG made three recommendations to address
these matters.

Financial Audit of USAID Funds Managed by the Dairy Rural Development Foundation
Under Cooperative Agreement No. 391-A-00-11-01206-00, for the Year Ended June 30,

                                                                                                 67
   2012 (Report No. G-391-13-017-R, March 8, 2013). The audit covered revenues of
   $2,671,787 and costs of $2,641,936, and did not identify any questioned costs. Auditors did,
   however, find one material instance of noncompliance relating to the more than 5-month delay in
   providing a required annual report, and OIG made one recommendation to address this issue.

   Quality Control Review of the Audit Report and Documentation for the Financial Audit
   Conducted by Horwath Hussain Chaudhury & Co. of USAID Funds Managed by the
   Dairy Rural Development Foundation Under Cooperative Agreement No. 391-A-00-11-
   01206-00, for the Year Ended June 30, 2012 (Report No. G-391-13-001-Q, March 8,
   2013). OIG found that the audit work generally complied with relevant requirements except those
   related to full documentation, the audit firm’s continuing education program, and external quality
   control reviews. The audit firm, however, indicated its willingness to participate in training
   programs that would enable it to meet requirements for a satisfactory continuing education
   program and volunteered to be part of a future peer review in Pakistan.

Work Under Way

As of March 31, 2013, USAID OIG had three performance audits, one performance review, seven
financial audits, and two financial reviews in progress:

   Audit of USAID/Pakistan’s Monitoring and Evaluation Program. This audit will determine
   whether USAID/Pakistan is using results from its monitoring and evaluation program to manage its
   portfolio.

   Audit of USAID/Pakistan’s Agribusiness Project. This audit will determine whether the
   project is effectively monitoring farmers’ incomes and whether employment opportunities have
   increased as a result of the development of agricultural value chains.

   Audit of USAID/Pakistan’s Small Grants and Ambassador’s Fund Program. This audit
   will determine whether this initiative has resulted in community-based projects that meet
   community needs.

   Review of USAID/Pakistan’s International Training Practices. This review will determine
   whether USAID/Pakistan complied with its mission training policy.

   Financial Audit of USAID Funds Managed by the Provincial Reconstruction,
   Rehabilitation, and Settlement Authority Under Cash Transfer Grant Agreement No.
   391-011 for the Malakand Reconstruction and Recovery Program Assistance—Housing
   Program for the Year 2011-2012.

   Financial Audit of USAID Resources Managed by Associates in Development (Private)
   Limited Under the Assessment and Strengthening Program, Cooperative Agreement


                                                                                                  68
   No. 391-A-00-1101203-00, and Monitoring and Evaluation Project, Contract No. 391-C-
   00-10-01138-00, for the Year Ended June 30, 2012.

   Financial Audit of USAID Funds Managed by Lahore University of Management
   Sciences Under the Assessment and Strengthening Program, Cooperative Agreement
   No. 391-A-00-11-01202-00, and the Merit and Needs-Based Scholarship Program, Grant
   Agreement No. 391-G-00-04-01023-00, for the Year Ended June 30, 2012.

   Financial Audit of USAID Funds Managed by Transparency International-Pakistan
   Under the Anti-Corruption Program Pakistan II Program, Cooperative Agreement
   No. 391-A-00-09-01117-00, for the Project Ended December 31 2011, and the Anti-
   Fraud Hotline, Cooperative Agreement No. 391-A-00-10-01194-00, for the Year Ended
   June 30, 2012.

   Financial Audit of USAID Funds Managed by the National Rural Support Programme
   Under the Pakistan Private Small Grants and Ambassador’s Fund, Contract No. 391-C-
   00-10-01189-00, for the Year Ended June 30, 2012.

   Closeout Financial Audit of Accelerated Capacity Building – School Rehabilitation and
   Construction Program Implemented by KPMG Taseer Hadi & Co. and Associates in
   Development.

   Financial Audit of USAID Funds Managed by the Health Services Academy Under
   Grant Agreement No. 391-IL-08-01111-00, for the Period July 1, 2011, to June 30, 2012.

   Financial Review of USAID Funds Managed by the Education Development Center Inc.
   Under Cooperative Agreement No. 391-A-11-00001, for the Period April 5 to
   December 31, 2011.

   Financial Review of USAID Resources (Local Costs) Managed by the American
   Institutes for Research Under Cooperative Agreement No. 391-A-00-08-01100-00, for
   the Period July 1, 2010, to December 31, 2011.

Work Planned

In addition to those completed and under way, USAID OIG plans to conduct six performance audits
during the remainder of FY 2013:

   Audit of USAID/Pakistan’s FATA Secretariat Capacity Building Program—Phase II.
   This audit will determine whether the program is improving the capacity of governmental
   institutions to govern through training, automating processes, and developing management and
   financial systems.

                                                                                            69
   Audit of USAID/Pakistan’s Smallholder Dairy Project. This audit will determine whether
   the project is strengthening the skills of dairy farmers and livestock workers to expand yields,
   improve breeding interventions, and increase incomes.

   Audit of USAID/Pakistan’s Government-to-Government Assistance.                      This audit will
   determine whether this is an effective development mechanism.

   Audit of USAID/Pakistan’s Entrepreneurs Project. This will be a follow-up audit to
   determine whether the project has succeeded in increasing the incomes of 75,000 microenterprise
   owners, and whether USAID has taken effective corrective actions in response to the
   recommendations of a previous OIG audit of the program.

   Audit of USAID/Pakistan’s Power Distribution Improvement Program. This audit will
   determine whether the program is improving the operational and financial performance of the eight
   electric power distribution companies in Pakistan by reducing losses, increasing revenues, and
   improving service.

   Audit of the Sindh Basic Education Program. This audit will determine whether the program
   is achieving its goals of increasing and sustaining student enrollment in targeted areas.

Investigative Work and the Anti-Fraud Hotline

As of March 31, 2013, USAID OIG had 39 open investigations pertaining to Pakistan. OIG investigators
closed one case during the quarter.

In January 2013, USAID/Pakistan issued a bill for collection to the Rafi Peer Theater Workshop, a local
Pakistani NGO that implemented the Pakistan Children’s Television Project, which was terminated in
September 2012. An audit conducted as part of an OIG investigation into irregularities in procurements
by the project identified $2,030,417 in potentially disallowable costs. Based on the audit findings and
input from the Theater Workshop, USAID/Pakistan disallowed $1,598,014, and issued a bill for
collection in that amount. Rafi Peer Theater Workshop did not meet the deadline to repay the funds
and had not otherwise responded to USAID/Pakistan by the end of the reporting period. In addition,
the Pakistani NGO refused to return video production equipment purchased as part of the project.

Outreach. USAID OIG continued to work to reinforce fraud reporting and investigation in Pakistan
through outreach efforts. During the reporting period, OIG conducted nine fraud awareness briefings
for 329 participants. Investigative outreach efforts this quarter focused on employees of USAID, its
implementing partners, local NGOs, and Pakistani Government officials.

Anti-Fraud Hotline. USAID OIG also continued to work closely with the hotline to vet and
investigate incoming complaints. This quarter, the hotline received 378 complaints.



                                                                                                    70
Consistent with patterns of reporting in previous quarters, most hotline complaints originated from
Sindh Province. During this quarter, total complaints were distributed across Pakistan’s regions as
follows: Sindh 224 (59 percent), Balochistan 58 (15 percent), Punjab 55 (15 percent), and Khyber
Pakhtunkhwa 28 (7 percent). Other areas of Pakistan combined to account for 3 percent of complaints.

As shown in Figure 2, slightly more than half of complaints received during the reporting period related
to service delivery.


                Figure 2. Distribution of Hotline Complaints by Type

                                      12%

                                               7%            Solicitation of Bribe, Kickback, or Favor
                  28%
                                                    1%       Theft
                                                             Procurement Fraud or Rules Violation
                                                             Problem With Service Delivery
                                                             Other
                                  52%




              Source: Transparency International–Pakistan.


Since its introduction in February 2011, the Anti-Fraud Hotline has been widely advertised on television,
radio, newspaper, and billboards. As the only one of its kind in Pakistan, the hotline has received a
significant volume of complaints related to programs implemented by other agencies. USAID OIG
refers these complaints to the appropriate agency for further review and investigation. From January 1
to March 31, 2013, OIG referred 80 hotline complaints to outside entities, including WFP, the World
Health Organization, UNICEF, the UN Development Programme, the European Commission
Humanitarian Aid and Civil Protection / European Anti-Fraud Office, Pakistan’s BISP, Save the Children,
the Marie Stopes Society, and the National Rural Support Programme.


Government Accountability Office

GAO continues to assist congressional clients by conducting oversight of U.S. efforts in Pakistan. GAO
had two ongoing Pakistan-related engagements during this reporting period. GAO’s plans for additional
Pakistan-related work are subject to congressional interests and requests.



                                                                                                         71
Work Under Way

As of March 31, 2013, GAO had two ongoing engagements concerning Pakistan:

   Pakistan Visa Delays. In FYs 2002 through 2012, Pakistan received more than $26 billion in U.S.
   funding and reimbursements, including training provided to Pakistani officials. Much of this training is
   provided by U.S. officials who require visas to travel to Pakistan to deliver technical assistance and
   training. GAO evaluated (1) the extent to which U.S. officials experience delays in obtaining
   Pakistani visas and the effects of these delays and (2) steps U.S. agencies have taken to address
   Pakistani visa delays.

   U.S. High-Threat Training. Recent attacks on U.S. embassies have highlighted the dangers faced
   by U.S. civilian personnel assigned to overseas diplomatic posts to manage U.S. efforts. To help
   safeguard these personnel, DOS has established a requirement for Foreign Affairs Counter Threat
   (FACT) training for personnel assigned permanently or temporarily to certain high-threat posts,
   including Pakistan. GAO is evaluating (1) the extent to which permanently assigned U.S. civilian
   personnel at posts requiring FACT training complied with or obtained waivers from this
   requirement, (2) the extent to which temporarily assigned U.S. civilian personnel at posts requiring
   FACT training complied with or obtained waivers from the requirement, and (3) whether U.S.
   agencies have controls in place to ensure compliance with the FACT training requirement.




                                                                                                        72
                                                                                            Appendix I



Appendix I—–Distribution of U.S. Assistance by Agency
The following table provides information on the obligation and disbursement of assistance by federal
agencies and offices from FY 2010 through March 31, 2013.

       Civilian Assistance to Pakistan by Sector, Agency, and Fund as of March 31, 2013
                                     ($ Million; Unaudited)

   Managing                                         Obligated*                            Disbursed
   Agency or             Fund                                                                          †
    Office                                                                              FYs 2010–2013
                                  FY 2010     FY 2011 FY 2012 FY 2013       Total

 Energy

 USAID             ESF                 98.3      237.5        –        –      335.8          225.3
 Subtotal                              98.3     237.5         –        –      335.8          225.3

 Economic Growth

 DOC               ESF                    –        1.0        –        –        1.0            3.1
 DOT               ESF                  0.1         –         –        –        0.1            0.1
 USAID             ESF                 78.6      164.1     63.1        –      305.8          142.6
 USDA              ESF                 18.9       10.0      1.3        –       30.2           20.9
 USTDA             ESF                    –        2.3        –        –        2.3            4.0
 Subtotal                              97.7     177.5      64.4        –      339.5          170.7

 Stabilization

 DOD               ESF                 10.0         –         –        –       10.0            1.0
 DOS OIG           ESF                    –        2.0        –        –        2.0            2.0
 Economic
 Section, U.S.     NADR                12.7        6.8        –        –       19.5            –
 Embassy
                   ESF                    –         –         –        –            –         19.7
 INL, DOS
                   INCLE              166.0      114.4      4.0       1.5     285.9          151.6
 Office of the
 Special
 Representative
                   ESF                    –         –         –        –            –          1.0
 for Afghanistan
 and Pakistan,
 DOS
 POL, U.S.
                   NADR                 1.6        1.8      0.8        –        4.2            1.1
 Embassy

                                                                                                      73
                                                                                       Appendix I



  Managing                                       Obligated*                          Disbursed
  Agency or           Fund                                                                        †
   Office                                                                          FYs 2010–2013
                                FY 2010    FY 2011 FY 2012 FY 2013     Total

RSO, U.S.
                NADR                15.4       10.0       –        –      25.4           24.6
Embassy
                ESF                248.7      150.6   241.7        –     641.0          480.9
USAID
                PCF                   –        70.0       –        –      70.0            –
Subtotal                           454.5     355.5    246.5      1.5   1,057.9          682.0

Education

PAS, U.S.
                ESF                 19.5       19.5    19.5        –      58.5           62.2
Embassy
USAID           ESF                206.5       82.3     0.7        –     289.5          242.9
Subtotal                           226.0     101.8     20.2        –     348.0          305.1

Health

USAID           ESF / GHCS         224.3       84.7       –        –     309.1          236.4

Subtotal                           224.3      84.7        –        –     309.1          236.4

Crosscutting Priorities: Good Governance, Gender Equity, and Greater Transparency

                ESF                  5.0         –        –        –       5.0            1.9

DRL, DOS
            ‡   Human Rights
                & Democracy          2.1         –      0.2        –       2.3            2.2
                     §
                Fund
                Consular and
                Diplomatic           7.0        9.5    25.6      1.5      43.5           22.1
PAS             Programs
                ESF                   –         9.2       –        –       9.2           11.2
USAID           ESF                 97.6      118.4    10.3        –     226.3          127.3
USIP            ESF                  3.0         –        –        –       3.0            2.0
Subtotal                           114.7     137.1     36.1      1.5     289.4          166.6

Humanitarian Assistance

                Overseas
                Humanitarian,
DOD                                   –          –        –        –           –          97.0
                Disaster, &
                Civic Aid
INL             INCLE                 –          –        –        –           –           3.9




                                                                                                 74
                                                                                                          Appendix I



     Managing                                                  Obligated*                               Disbursed
     Agency or             Fund                                                                                      †
      Office                                                                                          FYs 2010–2013
                                         FY 2010      FY 2011 FY 2012 FY 2013              Total

                     ERMA                      33.0            –          –           –        33.0          33.0
    PRM, DOS**
                     MRA                       57.0         33.5       14.9          3.0     108.4          107.8
                     ESF                      334.7            –        8.0           –      342.7          684.9
                     Food for Peace            96.9       115.1        68.1       60.1       340.1          340.1
    USAID
                     International
                     Disaster                 258.4       164.1        54.3          3.0     479.8           517.8
                     Assistance
    Subtotal                                 780.0        312.7      145.3       66.1       1,304.0        1,784.6

    Total                                  1,995.4      1,406.7      512.5       69.1       3,983.6        3,570.7

Source: U.S. Embassy Islamabad.

Note: Numbers do not always sum to subtotals and totals because of rounding. A dash indicates a value of zero.

*    Obligations are reported by the fiscal year in which funds were appropriated.
†    Disbursement figures refer to funds disbursed in FYs 2010–2013 regardless of when they were appropriated or
     obligated. Some disbursements this period were of funds appropriated before FY 2010. As a result, these figures
     cannot be used to determine how much of the obligated funding reported in this table remains unexpended.

‡    In addition to funds from ESF and the Human Rights and Democracy Fund, DRL assistance to Pakistan for
     crosscutting priorities has been supported by less than $100,000 in Development Assistance funding.

§    DRL has provided additional assistance to Pakistan as part of a grant program that also funds activities in Saudi
     Arabia. Because the level of funding provided for activities in Pakistan in particular is not available, funds
     associated with the grant program are not included in this table.

** In addition to these funds, PRM provides funding to assist Afghan refugees in the region, including those in
     Pakistan. PRM obligated $257.4 million in FY 2010–2013 funds and disbursed $232.2 million from October 1,
     2009, to March 31, 2013, for this regional effort.




                                                                                                                    75
                                                                                                 Appendix II



Appendix II—Completed Oversight Reports
The following table lists oversight reports completed since the passage of the Enhanced Partnership with
Pakistan Act, October 15, 2009.

                      Oversight Reports Completed as of March 31, 2013

    Agency        Report Number       Report Date                         Report Title

FY 2013 Reports

                                                     Audit of USAID/Pakistan’s Gender Equity Program
USAID             G-391-13-002-P         3/28/13
                                                     Implemented by the Aurat Foundation

                                                     Quality Control Review of the Audit Report and
                                                     Documentation for the Financial Audit Conducted by
                                                     Horwath Hussain Chaudhury & Co. of USAID Funds
USAID             G-391-13-001-Q         3/8/13
                                                     Managed by the Dairy Rural Development Foundation
                                                     Under Cooperative Agreement No. 391-A-00-11-01206-
                                                     00, for the Year Ended June 30, 2012

                                                     Financial Audit of Funds Managed by Dairy Rural
                                                     Development Foundation Under Cooperative
USAID             G-391-13-017-R         3/8/13
                                                     Agreement No. 391-A-00-11-01206-00, for the Year
                                                     Ended June 30, 2012

                                                     Financial Audit of Funds Managed by Managed by the
                                                     Health Services Academy Under Grant Agreement
USAID             G-391-13-016-R         2/22/13
                                                     No. 391-IL-08-01111-00, for the Period July 1, 2009, to
                                                     June 30, 2010

                                                     Audit of USAID/Pakistan’s Design for Sustainability in the
USAID             G-391-13-001-P         1/17/13     Jamshoro Thermal Power Station Repair and
                                                     Rehabilitation Project

                                                     Compliance Followup Review of Department of State
DOS               AUD-MERO-13-18        12/31/12     Internal Controls Over the J. William Fulbright
                                                     Scholarship Fund in Pakistan

                                                     Financial Procedures Review of USAID/Pakistan
                                                     Resources Managed by Save the Children Under the
USAID             G-391-13-002-O        12/21/12
                                                     Improved Child Health in the Federally Administered
                                                     Tribal Areas Program

                                                     Financial Audit of USAID Funds Managed by the FATA
                                                     Secretariat for the Reactivation and Rehabilitation of
USAID             G-391-13-015-R        12/18/12     Damaged Transformers and 33-Kilovolt High-Tension
                                                     and 11-Kilovolt Low-Tension Lines for the Year Ended
                                                     June 30, 2011


                                                                                                           76
                                                                                      Appendix II


   Agency   Report Number    Report Date                        Report Title

                                           Financial Audit of USAID Funds Managed by the FATA
USAID       G-391-13-014-R     12/18/12    Secretariat for the Kaur-Gomal-Tanai-Wana Road for
                                           the Year Ended June 30, 2011

                                           Financial Audit of USAID Funds Managed by the FATA
                                           Secretariat Under Program Assistance Agreement
USAID       G-391-13-013-R     12/18/12
                                           No. 391-AAG-011-SWA-TANK for the Year Ended
                                           June 30, 2011

                                           Financial Audit of USAID Funds Managed by the FATA
                                           Secretariat Under Program Assistance Agreement
USAID       G-391-13-012-R     12/18/12
                                           No. 391-SWA-FARA-001-00 for the Year Ended
                                           June 30, 2011

                                           Financial Audit of USAID Funds Managed by the Water
                                           and Power Development Authority Under Program
USAID       G-391-13-011-R     12/5/12
                                           Assistance Agreement No. 391-PEPA-ENR-SATPARA-
                                           PIL-001 for the Year Ended June 30, 2011

                                           Financial Audit of USAID Funds Managed by the Water
                                           and Power Development Authority Under Program
USAID       G-391-13-010-R     12/3/12
                                           Assistance Agreement No. 391-TDR-FARA-002-00 for
                                           the Year Ended June 30, 2011

                                           Financial Audit of USAID Funds Managed by the Water
                                           and Power Development Authority Under Program
USAID       G-391-13-009-R     12/3/12
                                           Assistance Agreement No. 391-PEPA-ENR-GOMAL-PIL-
                                           001 for the Year Ended June 30, 2011

                                           Financial Audit of USAID Funds Managed by Jamshoro
USAID       G-391-13-008-R     11/15/12    Power Company Limited for the Year Ended June 30,
                                           2011

                                           Financial Audit of the Malakand Reconstruction and
                                           Recovery Program Managed by the Provincial Disaster
USAID       G-391-13-007-R     11/8/12     Management Authority / Provincial Relief, Rehabilitation
                                           and Settlement Authority, for the Year Ended June 30,
                                           2011

                                           Financial Audit of the USAID Funds Managed by the
USAID       G-391-13-006-R     11/1/12     Northern Power Generation Company for the Period
                                           May 20, 2010, to June 30, 2011

                                           Financial Audit of the USAID Cash Transfer Managed by
USAID       G-391-13-005-R     10/31/12    the Higher Education Commission for the Period
                                           September 30, 2009, to June 30, 2010

                                           Agreed-Upon Procedures Review of USAID/Pakistan
USAID       G-391-13-001-O     10/24/12    Resources Managed by the Rural Support Programs
                                           Network Under the Sindh Agricultural Recovery Project


                                                                                                77
                                                                                            Appendix II


   Agency         Report Number    Report Date                        Report Title

                                                 Financial Audit of the Small Grants and Ambassador’s
                                                 Fund Program, Subaward Managed by the Rural Support
USAID             G-391-13-004-R     10/4/12
                                                 Programmes Network, for the Period August 31, 2010,
                                                 to June 30, 2011

                                                 Financial Audit of the Assessment and Strengthening
                                                 Program for Civil Society Organizations Managed by the
USAID             G-391-13-003-R     10/3/12
                                                 Rural Support Programmes Network, for the Period
                                                 October 12, 2010, to June 30, 2011

                                                 Closeout Financial Audit of the Emergency Relief Items
                                                 to Communities Affected by Floods in Pakistan Program
USAID             G-391-13-002-R     10/3/12
                                                 Managed by the Rural Support Programmes Network,
                                                 for the Period August 13 to November 15, 2010

                                                 Financial Audit of USAID Resources Managed by the
                                                 Rural Support Programmes Network as a Subrecipient
USAID             G-391-13-001-R     10/2/12     of the Population Council Under the Family
                                                 Advancement for Life and Health Program, for the Year
                                                 Ended June 30, 2011

FY 2012 Reports

                                                 Evaluation of the Local Guard Force Contract for
DOS               AUD-MERO-12-46     9/30/12     Embassy Islamabad and Consulates General Karachi,
                                                 Lahore, and Peshawar

                                                 Support for Department Employees Serving in
DOS               ISP-I-12-49        9/30/12
                                                 Afghanistan, Iraq, and Pakistan

                                                 Audit of USAID/Pakistan’s Assessment and Strengthening
USAID             G-391-12-009-P     9/30/12
                                                 Program

                                                 Mi-17 Overhauls Had Significant Cost Overruns and
DOD               DODIG-2012-135     9/27/12
                                                 Schedule Delays

                                                 Section 632(a) Transfer of Funds for Pakistan from
USDA              50601-0001-16      9/27/12
                                                 USAID to USDA

                                                 Financial Audit of the Emergency Relief and Early
                                                 Recovery for Flood Affectees Across Pakistan Program
USAID             G-391-12-019-R     9/26/12
                                                 Managed by the Rural Support Programmes Network,
                                                 for the Period October 15, 2010, to June 30, 2011

                                                 Financial Audit of USAID Funds Managed by the Higher
                                                 Education Commission Under the Merit and Needs-
USAID             G-391-12-018-R     9/25/12
                                                 Based Scholarship Program, for the Year Ended June 30,
                                                 2011



                                                                                                      78
                                                                                      Appendix II


   Agency   Report Number    Report Date                        Report Title

                                           Closeout Financial Audit of the Aga Khan University’s
                                           Flood Response Program and National Nutrition Survey
USAID       G-391-12-017-R     9/13/12
                                           Supplement Program, for the Period January 1, 2011, to
                                           February 29, 2012

                                           Audit of USAID/Pakistan's Gomal Zam Multipurpose
USAID       G-391-12-008-P     8/24/12
                                           Dam Project

                                           Audit of USAID/Pakistan's Reconstruction Program in
USAID       G-391-12-007-P     8/16/12
                                           Earthquake-Affected Areas

                                           Report on Agreed-Upon Forensic Procedures
                                           Performed on Procurement Costs Incurred by Rafi Peer
USAID       G-391-12-001-O     7/31/12     Theatre Workshop to Implement the Pakistan Children
                                           Television Project, for the Period May 7, 2010, to
                                           May 31, 2012

                                           Closeout Financial Audit of the Pakistan
USAID       G-391-12-016-R     7/20/12     Competitiveness Support Fund for the Period July 1,
                                           2011, to March 31, 2011

                                           U.S. Agencies Face Challenges Countering the Use of
GAO         GAO-12-907-T       7/12/12     Improvised Explosive Devices in the Afghanistan/Pakistan
                                           Region

                                           Financial Audit of USAID Resources Managed by
USAID       G-391-12-015-R     7/12/12     Khushhali Bank Limited, for the Year Ended December
                                           31, 2011

                                           Closeout Financial Audit of USAID Resources Managed
USAID       G-391-12-014-R     7/10/12     by the Pakistan Poverty Alleviation Fund, for the Period
                                           August 12, 2010, to June 30, 2011

                                           Review of USAID/Pakistan’s Cost Estimates for Shipping
USAID       G-391-12-001-S     6/18/12
                                           and Storage

                                           Financial Audit of the Gender Equity Program Managed
                                           by the Aurat Publication and Information Service
USAID       G-391-12-013-R     6/12/12
                                           Foundation, for the Period August 15, 2010, to June 30,
                                           2011

                                           Quality Control Review of the Audit Report and Audit
                                           Documentation for the Financial Audit Conducted by
                                           Ernst & Young Ford Rhodes Sidat Hyder of the Gender
USAID       G-391-12-003-Q     6/12/12
                                           Equity Program, Managed by Aurat Publication and
                                           Information Service Foundation, for the Period August
                                           15, 2010, to June 30, 2011

                                           Compliance Followup Review of Embassy Islamabad and
DOS         ISP-C-12-28A       5/24/12
                                           Constituent Posts, Pakistan

                                                                                                 79
                                                                                      Appendix II


   Agency   Report Number    Report Date                        Report Title

                                           Audit of USAID/Pakistan’s Support to the Benazir
USAID       G-391-12-006-P     5/21/12
                                           Income Support Program

                                           State Should Enhance Its Performance Measures for
GAO         GAO-12-614         5/15/12     Assessing Efforts in Pakistan to Counter Improvised
                                           Explosive Devices

                                           Financial Audit of the USAID/Pakistan Grant Agreement
USAID       G-391-12-012-R     5/10/12     Managed by the Health Service Academy, for the Period
                                           July 1, 2010, to June 30, 2011

                                           Evaluation of the Antiterrorism Assistance Program for
DOS         AUD/MERO-12-29     4/30/12     Countries Under the Bureaus of Near Eastern Affairs
                                           and South and Central Asian Affairs

                                           Financial Audit of Projects Managed by Lahore University
                                           of Management Sciences: the Foreign Recipient
USAID       G-391-12-011-R     4/24/12     Contracted Assessment and Strengthening Program and
                                           Subrecipient Contracted Merit and Needs-Based
                                           Scholarship Program, for the Year Ended June 30, 2011

USAID       G-391-12-005-P     4/20/12     Audit of USAID/Pakistan’s Entrepreneurs Project

                                           Financial Audit of the Pakistan Children’s Television
USAID       G-391-12-010-R     4/17/12     Project Managed by the Rafi Peer Theatre Workshop,
                                           for the Period May 7, 2010, to June 30, 2011

                                           Financial Audit of the Monitoring and Evaluation Project
                                           and Assessment and Strengthening Program Managed by
USAID       G-391-12-009-R     4/17/12
                                           Associates in Development (Private) Limited, for the
                                           Period January 1, 2010, to June 30, 2011

                                           Financial Audit of the USAID Resources Managed by
USAID       G-391-12-008-R      4/3/12     National Rural Support Programme, for the Period July
                                           1, 2010, to June 30, 2011

                                           Quality Control Review of the Audit Report and Audit
                                           Documentation for the Financial Audit Conducted by
                                           Avais Hyder Liaqut Nauman of Anti-Corruption
USAID       G-391-12-002-Q      4/3/12
                                           Program Pakistan and the Anti-Fraud Hotline Program
                                           Managed by Transparency International–Pakistan, for the
                                           Year Ended June 30, 2011

                                           Financial Audit of USAID/Pakistan’s Rupee Trust Fund
USAID       G-391-12-001-N     3/20/12
                                           for the Period October 1, 2009, to September 30, 2011

                                           Audit of USAID/Pakistan’s Pre-Service Teacher
USAID       G-391-12-004-P     3/16/12
                                           Education Program



                                                                                                 80
                                                                                       Appendix II


   Agency   Report Number    Report Date                         Report Title

                                           Financial Audit of the Pakistan Competitiveness Support
USAID       G-391-12-007-R      3/6/12
                                           Fund for the Period July 1, 2010, to June 30, 2011

                                           Financial Audit of Budgetary Support Managed by the
USAID       G-391-12-006-R     2/24/12     Economic Affairs Division of the Government of Pakistan
                                           for the Period June 8, 2009, to June 15, 2011

                                           Quality Control Review of the Financial Audit
                                           Conducted by the Directorate General Audit, Federal
                                           Government, Department of the Auditor General of
USAID       G-391-12-001-Q     2/17/12
                                           Pakistan, of the Merit and Needs-Based Scholarship
                                           Project Managed by the Higher Education Commission,
                                           for the Period July 2, 2004, to June 30, 2010

                                           Financial Audit of the Merit and Needs-Based
                                           Scholarship Project Managed by the Higher Education
USAID       G-391-12-005-R     2/17/12
                                           Commission for the Period July 2, 2004, to June 30,
                                           2010

USAID       G-391-12-003-P      2/3/12     Audit of USAID’s Pakistan Transition Initiative Program

                                           Financial Audit of Anti-Corruption Program Pakistan and
USAID       G-391-12-004-R     1/13/12     Anti-Fraud Hotline Pakistan Managed by Transparency
                                           International–Pakistan for the Year Ended June 30, 2011

                                           Financial Audit of the Aga Khan University Flood
USAID       G-391-12-003-R      1/6/12     Response Program for the Period August 30, 2010, to
                                           December 31, 2010

                                           Pakistan: Assessment of State’s Justification to Support
GAO         NA                 11/29/11
                                           Its Certification of Pakistan’s Cooperation (Classified)

                                           Audit of USAID/Pakistan’s Energy Efficiency and Capacity
USAID       G-391-12-002-P     11/23/11
                                           Program

USAID       G-391-12-001-P     11/3/11     Audit of USAID/Pakistan’s Firms Project

                                           Financial Audit of Budgetary Support to the Government
                                           of Pakistan, USAID/Pakistan Program Assistance
USAID       G-391-12-002-R     11/3/11
                                           Agreement No. 391-005-ES-07, Managed by the Ministry
                                           of Finance, for the Year Ended June 30, 2008

                                           Financial Audit of Budgetary Support Managed by the
USAID       G-391-12-001-R     10/26/11    Benazir Income Support Program for the Period From
                                           September 30, 2009, to March 31, 2011




                                                                                                 81
                                                                                               Appendix II


   Agency         Report Number    Report Date                          Report Title

FY 2011 Reports

                                                 Financial Audit of the Business Revitalization Program
USAID             G-391-11-005-R     9/21/11     Managed by Khushhali Bank for the Period February 6,
                                                 2010, to December 31, 2010

                                                 Combating Terrorism: Pakistan Counterinsurgency
GAO               GAO-11-860SU       9/20/11     Funds Disbursed, but Human Rights Vetting Process Can
                                                 Be Enhanced

                                                 Audit of USAID/Pakistan’s Community Rehabilitation
USAID             G-391-11-006-P     8/29/11
                                                 Infrastructure Support Program

                                                 Pakistan Assistance: Relatively Little of the $3 Billion in
                                                 Requested Assistance Is Subject to State’s Certification
GAO               GAO-11-786R        7/19/11
                                                 of Pakistan’s Progress on Nonproliferation and
                                                 Counterterrorism Issues

                                                 Inspection of the Bureau of South and Central Asian
DOS               ISP-I-11-47        6/30/11
                                                 Affairs

                                                 Inspection of the Office of the Special Representative for
DOS               ISP-I-11-48        6/30/11
                                                 Afghanistan and Pakistan

                                                 Quality Control Review of the Audit Report and Audit
                                                 Documentation for the Financial Audit Conducted by
USAID             G-391-11-003-Q     6/23/11
                                                 A.F. Ferguson, of the Forman Christian College, for the
                                                 Period July 1, 2009 to March 31, 2010

                                                 Closeout Financial Audit of the Forman Christian
                                                 College for the Development of a 4-Year Bachelor
USAID             G-391-11-004-R     6/23/11     Degree Program and Strengthening Programs in Basic
                                                 Science and Information Technology, for the Period July
                                                 1, 2009, to March 31, 2010

                                                 Audit of USAID/Pakistan’s Road Rehabilitation and
USAID             G-391-11-005-P     6/20/11     Reconstruction Activities Under the Quick Impact
                                                 Projects in South Waziristan

                                                 Financial Audit of USAID/Pakistan’s Rupee Trust Fund
USAID             G-391-11-001-N     5/26/11
                                                 for the Period October 1 2006, to September 30, 2009

                                                 Quality Control Review of the Audit Report and Audit
                                                 Documentation for the Financial Audit Conducted by
USAID             G-391-11-002-Q     5/10/11     Nasir Javaid Maqsood Imran of the Pakistan
                                                 Competitiveness Support Fund for the Period July 1,
                                                 2009, to June 30, 2010

                                                 Financial Audit of the Pakistan Competitiveness Support
USAID             G-391-11-003-R     5/10/11
                                                 Fund for the Period July 1, 2009, to June 30, 2010

                                                                                                          82
                                                                                       Appendix II


   Agency   Report Number    Report Date                        Report Title

                                           Audit of USAID/Pakistan’s Management of Preaward
USAID       G-391-11-004-P      5/6/11
                                           Assessments

                                           Quality Control Review of the Audit Report and Audit
                                           Documentation for Financial Audits Conducted by
                                           Khalid Majid Rahman Sarfraz Rahim Iqbal Rafiq of the
USAID       G-391-11-001-Q      4/8/11
                                           Interactive Teaching and Learning Project Managed by
                                           Children’s Global Network Pakistan Limited, for the
                                           Period July 1, 2008, to February 26, 2010

                                           Closeout Financial Audit of the Interactive Teaching and
                                           Learning Project, and Financial Audit of the Links to
                                           Learning Education Support to Pakistan Program
USAID       G-391-11-002-R      4/8/11
                                           Subaward Managed by Children’s Global Network
                                           Pakistan Limited, for the Period July 1, 2008, to February
                                           26, 2010

                                           Department of State’s Report to Congress and U.S.
GAO         GAO-11-310R        2/17/11     Oversight of Civilian Assistance to Pakistan Can Be
                                           Further Enhanced

                                           Accountability for U.S. Equipment Provided to Pakistan
GAO         GAO-11-156R        2/15/11     Security Forces in the Western Frontier Needs to Be
                                           Improved

                                           Audit of USAID/Pakistan’s Flood Relief Efforts as
USAID       G-391-11-003-P     1/24/11
                                           Administered by Local Nongovernmental Organizations

                                           The Bureau of Population, Refugees and Migration’s
DOS         MERO-I-11-01       1/18/11
                                           Internally Displaced Persons Program in Pakistan

                                           Closeout Financial Audit of Khushhali Bank Limited
                                           Under the Developing Non-Bankable Territories for
USAID       G-391-11-001-R     12/30/10
                                           Financial Services Program, for the Period January 1,
                                           2009, to September 30, 2009

                                           Audit of USAID/Pakistan’s Livelihood Development
USAID       G-391-11-002-P     12/10/10    Program for the Upper Region of the Federally
                                           Administered Tribal Areas

                                           Audit of USAID/Pakistan’s Livelihood Development
USAID       G-391-11-001-P     12/10/10    Program for the Lower Region of the Federally
                                           Administered Tribal Areas

                                           Financial Audit of the Costs Incurred by Research
                                           Triangle Institute Under the Education Sector Reform
USAID       G-391-11-001-D     11/8/10     Assistance Program’s School Enhancement Program
                                           Component, for the Period December 4, 2002, to
                                           September 30, 2007


                                                                                                   83
                                                                                              Appendix II


   Agency         Report Number    Report Date                         Report Title

FY 2010 Reports

                                                 Audit of USAID/Pakistan’s Family Advancement for Life
USAID             5-391-10-012-P     8/31/10
                                                 and Health Program

                                                 Financial Audit of the Pakistan Competitiveness Support
USAID             G-391-10-001-R      8/4/10
                                                 Fund for the Period February 3, 2006, to June 30, 2009

                                                 Audit of USAID/Pakistan’s Primary Healthcare
USAID             5-391-10-010-P     6/28/10     Revitalization, Integration and Decentralization in
                                                 Earthquake-Affected Areas Project

                                                 Review of USAID’s Internally Displaced Persons
USAID             5-391-10-001-S     6/28/10
                                                 Programs in Pakistan

DOS               ISP-I-10-64        6/30/10     Inspection of Embassy Islamabad, Pakistan

                                                 Financial Audit of USAID Funds Managed by Forman
USAID             5-391-10-033-R     5/18/10     Christian College, Lahore, for the Period July 1, 2007, to
                                                 June 30, 2009

                                                 Financial Audit of USAID Funds Managed by Khushhali
USAID             5-391-10-029-R     4/30/10
                                                 Bank for the Year Ended December 31, 2008

                                                 Combating Terrorism: Planning and Documentation of
GAO               GAO-10-289         4/15/10     U.S. Development Assistance in Pakistan’s Federally
                                                 Administered Tribal Areas Need to Be Improved

                                                 Closeout Financial Audit of USAID Funds Managed by
USAID             5-391-10-026-R     3/24/10     Greenstar Social Marketing Pakistan (Guarantee)
                                                 Limited, for the Period July 1 to December 31, 2007

                                                 The Bureau of International Narcotics and Law
DOS               MERO-A-10-03       3/30/10     Enforcement Affairs Air Wing Program in Afghanistan
                                                 and Pakistan, Performance Audit

                                                 Closeout Financial Audit of USAID Funds Managed by
USAID             5-391-10-020-R     2/11/10     Aga Khan University—Examination Board, for the Year
                                                 Ended December 31, 2007

                                                 Audit of USAID/Pakistan’s Capacity Building for the
USAID             5-391-10-005-P     1/28/10     Federally Administered Tribal Areas Development
                                                 Program

                                                 Financial Audit of USAID Funds Managed by Children’s
USAID             5-391-10-012-R     12/22/09    Global Network Pakistan Limited, for the Year Ended
                                                 June 30, 2008




                                                                                                       84
                                                                                      Appendix II


  Agency   Report Number   Report Date                         Report Title

                                         Status of the Bureau of International Narcotics and Law
DOS        MERO-A-10-02      12/23/09    Enforcement Affairs Counternarcotics Programs in
                                         Afghanistan, Performance Audit

                                         Effectiveness and Efficiency of the Bureau of International
                                         Narcotics and Law Enforcement Affairs
DOS        MERO-A-10-01       11/09
                                         Counternarcotics Programs in Pakistan, Performance
                                         Audit




                                                                                                85
                                                                                Appendix III



Appendix III—–Abbreviations
ANF    Anti-Narcotics Force

ATA    Antiterrorism Assistance Program

BISP   Benazir Income Support Program

CDC    Centers for Disease Control and Prevention, U.S. Department of Health and
       Human Services

DOC    U.S. Department of Commerce

DOD    U.S. Department of Defense

DOS    U.S. Department of State

DOT    U.S. Department of the Treasury

DRL    Bureau of Democracy, Human Rights, and Labor, U.S. Department of State

ERMA   Emergency Refugee and Migration Assistance

ESF    Economic Support Fund

EXBS   Export Control and Related Border Security Assistance Program

FACT   Foreign Affairs Counter Threat

FATA   Federally Administered Tribal Areas

FFP    Food for Peace

FY     fiscal year

GAO    Government Accountability Office

GHCS   Global Health and Child Survival

HEC    Higher Education Commission


                                                                                         86
                                                                                    Appendix III


ICITAP   International Criminal Investigative Training Assistance Program

IDP      internally displaced person

INCLE    International Narcotics and Law Enforcement

INL      Bureau of International Narcotics and Law Enforcement Affairs,
         U.S. Department of State

MRA      Migration and Refugee Assistance

MSI      Management Systems International

NADR     Nonproliferation, Anti-terrorism, Demining, and Related Programs

NGO      nongovernmental organization

OCHA     UN Office for the Coordination of Humanitarian Affairs

OFDA     U.S. Office of Foreign Disaster Assistance, U.S. Agency for International Development

OIG      Office of Inspector General

PaRRSA   Provincial Reconstruction, Rehabilitation and Settlement Authority

PAS      Public Affairs Section (U.S. Embassy Islamabad)

PCF      Pakistan Counterinsurgency Fund

POL      Political Section (U.S. Embassy Islamabad)

PRM      Bureau of Population, Refugees, and Migration, U.S. Department of State

PRP      Pakhtunkhwa Radio Peshawar

RAPID    Responding to Pakistan’s Internally Displaced

RSO      Regional Security Office (U.S. Embassy Islamabad)

SMEs     small- and medium-size enterprises

UN       United Nations


                                                                                                 87
                                                     Appendix III


UNHCR    UN High Commissioner for Refugees

UNICEF   UN Children’s Fund

UNODC    UN Office on Drugs and Crime

USAID    U.S. Agency for International Development

USDA     U.S. Department of Agriculture

USIP     U.S. Institute of Peace

USTDA    U.S. Trade and Development Agency

WAPDA    Water and Power Development Authority

WFP      World Food Programme




                                                              88
